<html>
<title> - EXAMINING SEXUAL HARASSMENT AND GENDER DISCRIMINATION AT THE U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    EXAMINING SEXUAL HARASSMENT AND GENDER DISCRIMINATION AT THE U.S. 
                       DEPARTMENT OF AGRICULTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 1, 2016

                               __________

                           Serial No. 114-172

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
              
              
              
                               __________
                                             

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-179 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>             
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
         William McGrath, Interior Subcommittee Staff Director
              Melissa Beaumont, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 1, 2016.................................     1

                               WITNESSES

The Hon. Joe Leonard, Jr., Assistant Secretary for Civil Rights, 
  U.S. Department of Agriculture
    Oral Statement...............................................     5
    Written Statement............................................     8
Ms. Lenise Lago, Deputy Chief, Business Operations, U.S. Forest 
  Service, U.S. Department of Agriculture
    Oral Statement...............................................    11
    Written Statement............................................    13
Ms. Lesa Donnelly, Vice President of the USDA Coalition of 
  Minority Employees/Federal Employee Advocate and Former USFS 
  Employee
    Oral Statement...............................................    16
    Written Statement............................................    19
Ms. Denice Rice, Fire Prevention Technician, Region 5, Eldorado 
  National Forest, U.S. Forest Service, U.S. Department of 
  Agriculture
    Oral Statement...............................................    29
    Written Statement............................................    31

                                APPENDIX

Representative Gerald E. Connolly Statement......................    68
Material submitted by Mr. Cummings...............................    70
Dr. Kobziar Congressional Statement submitted by Mr. Chaffetz....    98
Ms. Moore Congressional Statement................................   101
Letter of May 18, 2015, from Office of Special Counsel to the 
  President submitted by Mr. Chaffetz............................   104

 
   EXAMINING SEXUAL HARASSMENT AND GENDER DISCRIMINATION AT THE U.S. 
                       DEPARTMENT OF AGRICULTURE

                              ----------                              


                       Thursday, December 1, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Jordan, Walberg, Amash, 
Gosar, Gowdy, Farenthold, DeSantis, Buck, Walker, Hice, 
Russell, Carter, Grothman, Hurd, Palmer, Cummings, Clay, Lynch, 
Connolly, Kelly, Lawrence, Lieu, and DeSaulnier.
    Also Present: Representative Speier.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order and, without objection, 
the chair is authorized to declare a recess at any time.
    We have an important hearing today examining sexual 
harassment and gender discrimination at the United States 
Department of Agriculture.
    Earlier this year, the committee held two hearings about 
sexual harassment throughout the National Park Service. And at 
these hearings, whistleblowers told the committee their stories 
of harassment, discrimination, and the retaliation they feared 
in coming forward.
    While many changes are still needed, the Park Service has 
begun the process of dealing with their cultural problems and 
removed some bad managers from their positions of leadership. 
Unfortunately, this problem is not contained to the Park 
Service and I would also say at the EPA, where we've had a 
number of hearings. But after the committee's Park Service 
hearings, numerous Department of Agriculture employees who were 
subject to sexual assault, harassment, and discrimination, also 
came forward to the committee.
    A number of examples and despicable acts were quite 
horrifying. Some of these women had even been raped by 
coworkers, but refused to testify due to the threat of 
retaliation and having their careers destroyed. I don't even 
begin to comprehend or understand how one instance of this 
behavior is not considered an immediate crisis. That is just 
beyond me. This isn't the first time the issue has been raised 
at the Department of Agriculture and thus this hearing, because 
this is the deep concern.
    In 2008, the committee held a hearing regarding sexual 
harassment and discrimination at the United States Department 
of Agriculture. Lesa Donnelly, who is with us today, also 
testified at that hearing. Back then she pled for help for the 
employees at the Forest Service who were sexually assaulted and 
then retaliated against. Even worse, when these concerns were 
raised to the Department level, they were dismissed as isolated 
incidents.
    After 8 years in the current situation, we need to review 
what has changed and what still needs to be fixed. And based on 
what we've been reading leading up to this hearing, it doesn't 
look good, not in the least.
    Last year, the Office of Special Counsel, the OSC sent 
letters to the President about the failings of the Office of 
Civil Rights at the Department of Agriculture. We lean heavily 
on the Office of Special Counsel. It is unusual that they have 
to go to this length to actually send a letter to the President 
about the failings.
    But the Office of Special Counsel found that the office 
failed to process complaints in a timely manner and that the 
Office of Civil Rights leadership had an unusual high number of 
complaints against their own personnel. How can employees trust 
the Office of Civil Rights when its own leadership is alleged 
to be discriminating? Even worse, when the ranking member, Mr. 
Cummings, tried to investigate this problem, the Department 
failed to produce documents and generally dismissed staff 
concerns.
    That's why the ranking member and I sent another letter 
just last week requesting the documents that the Department 
refused to provide. It is frowned upon, at best, it is 
unacceptable and very frustrating to have this happen.
    In addition to Ms. Donnelly, I would like to acknowledge we 
are joined today by a Forest Service employee testifying in a 
whistleblower capacity. She should be applauded for agreeing to 
come forward, despite the fear of possible retaliation. It is 
difficult to do this. It is not her first choice in life. I am 
sure this is not something that she ever thought that she would 
be doing, but we appreciate the brave approach and willingness 
to represent what is, unfortunately, a significant number of 
women.
    However, the committee staff spoke with numerous other 
employees who were so scared of retaliation they wouldn't come 
forward publicly. But we do appreciate Ms. Rice and her 
willingness to be here today.
    I want to be absolutely clear, absolutely clear, that any 
retaliation against any witness before this committee or a 
victim of sexual harassment is totally completely unacceptable 
and gravely concerns the committee. And I can promise you and 
assure you that Mr. Cummings and I as well as members on both 
sides of this aisle will fight and push and defend these people 
who are whistleblowers, who are trying to do what is right for 
the country, trying to do what's right for them personally, and 
trying to do what's right for their fellow employees.
    So I want to thank the ranking member and his staff for 
their work on this issue. I know he takes the threat of 
retaliation against whistleblowers as seriously as we do. We 
are united locked in arm on this and look forward to a good 
hardy hearing.
    But, with that, I want to thank again the witnesses for 
being here today.
    And now recognize the ranking member, Mr. Cummings of 
Maryland.
    Mr. Cummings. Mr. Chairman, thank you very much.
    And I want to start off where you ended. Without question, 
Mr. Chairman, I agree with you that we stand hand in hand with 
regard to making sure that whistleblowers are not victims of 
retaliation. And we said it many times, and sometimes I wonder 
whether folk in the various departments really hear us. But I 
want to make it real, real clear that I will fight for a 
whistleblower and fight to protect them, because I do, I agree 
with the chairman, for whistleblowers to come forward, to 
provide testimony and after already being in many instances a 
victim, and then to have to go through a process of worrying 
about whether they keep their job or whether harm comes to 
them, we are simply a better country than that.
    Back in September, when our committee convened to hear the 
testimony from whistleblowers in the National Park Service, I 
began by expressing the very simple principles that have guided 
my work on civil rights in the Federal workplace over the past 
two decades. I will restate them today. No employee should ever 
be afraid to come to work. Let me say that again. No employee 
should ever be afraid to come to work. A real simple sentence, 
but that's the way it should be. They shouldn't be afraid to 
come to work. And no employee should ever fear retaliation if 
she steps forward to report conduct that makes her feel afraid.
    I thank Lesa Donnelly and Denice Rice for their willingness 
to come forward today. Ms. Donnelly, who worked for the Forest 
Service from 1978 until her retirement in 2002, now assists 
others who have experienced sexual harassment and retaliation. 
So I want to thank you, Ms. Donnelly, for your work. You have 
taken your pain, turned it into a passion to do your purpose. 
Pain, passion, purpose.
    Ms. Rice is a fire prevention technician who has worked for 
the Forest Service for more than a decade. And I, like the 
chairman, know that it has been very difficult for you to come 
forward today to speak about your experiences. And I deeply 
appreciate your courage. Our staffs have told us about how 
difficult this is for you, and I promise you we will be as 
gentle as we can be, but just know that the people up here are 
friends and we want to make life better for you and for the 
people that you have come to represent.
    For more than 40 years, the Forest Service has repeatedly 
faced litigation alleging discrimination against female 
employees. A lawsuit filed in the early 1970s--let me say that 
again, early 1970s--and another lawsuit filed in the mid 1990s 
each resulted in long-term consent decrees. Despite the changes 
required by those consent decrees, we continue to receive 
disturbing allegations of discrimination and retaliation 40 
years after the first lawsuit. Forty years, 40 years of 
harassment, 40 years of pain, 40 years of lost opportunity, 40 
years of fear. It's long past time for the Forest Service to 
finally break its toxic cycle of sue, settle and backslide. 
Sue, settle and backslide. Sue, settle and backslide.
    While many steps must be taken to ensure that all Forest 
Service employees work in an environment free from 
discrimination and harassment, one critical step must be 
ensuring that the process of handling EEO complaints is 
effective and efficient at both the agency and the departmental 
levels.
    Today, we are joined by the Department of Agriculture's 
Assistant Secretary for Civil Rights Dr. Joe Leonard. I have 
known Dr. Leonard for many years. I appreciate his commitment 
to protecting civil rights and I thank him for being here 
today. As Dr. Leonard knows, I was deeply troubled by a letter 
that the Office of Special Counsel sent to the President back 
in May of 2015, which the chairman referenced.
    This letter was unprecedented and it was extremely 
disturbing. As a matter of fact, I haven't seen a letter like 
that since I've been here, and I've been here 20 years. It 
warned President Obama that USDA's civil rights program, and I 
quote, ``has been seriously mismanaged, thereby compromising 
the civil rights of USDA employees,'' end of quote. It stated 
that the civil rights office, quote ``has an unusually high 
number of complaints filed against its own leadership,'' end of 
quote. It stated that corrective actions did not, quote, 
``provide sufficient redress for affected individuals,'' and it 
recommended that USDA review their cases again, quote, ``to 
assess how affected employees could be made whole,'' end of 
quote.
    To follow up on this troubling letter, as a followup, I 
sent a request of my own to the USDA a year ago seeking 
information about its management of EEO complaints and its 
plans for making their employees whole. Unfortunately, I have 
been extremely frustrated and disappointed by the response I 
received from Department officials. They provided some 
information, now, that's true, but they did not treat my 
request with the seriousness I believe it deserved. This is 
extremely important to me and extremely important to this 
committee. And this unprecedented letter to the President of 
the United States should have spurred the Department to make an 
overwhelming effort to fully cooperate with my request and try 
to get this right. Unfortunately, that is not what happened.
    For these reasons, I was pleased that the chairman joined 
me this month in a new request to USDA from this committee for 
data on EEO complaints filed against senior USDA managers as 
well as for internal and external reports assessing USDA's 
handling of EEO complaints.
    And as I close, Mr. Chairman, I just want to say something 
to the Department. You know, I don't want you to come in here 
and rope-a-dope, just come here and tell us the nice things 
that have happened and not tell us how you address these issues 
and how you plan to address them. These things have been going 
on for 40 years. That's a long time. And so, again, I emphasize 
this is not a Republican issue, it's not a Democratic issue, 
this is an American issue.
    With that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Chairman Chaffetz. And we'll now recognize our panel of 
witnesses. We are pleased to welcome the Honorable Joe Leonard, 
Jr., Assistant Secretary for Civil Rights of the United States 
Department of Agriculture; Ms. Lenise Lago--did I pronounce it 
right--deputy chief of business operations at the United States 
Forest Service, the United States Department of Agriculture; 
Ms. Lesa Donnelly, vice president of the USDA Coalition for 
Minority Employees/Federal employee advocate, and former United 
States Forest Service employee; as well as Ms. Denice Rice, 
fire prevention technician for Region 5, Eldorado National 
Forest at the United States Forest Service within the 
Department of Agriculture.
    We thank you all for being here. Pursuant to committee 
rules, all witnesses are to be sworn before they testify. So if 
you can please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth? Thank you.
    Please let the record reflect that all witnesses answered 
in the affirmative.
    We would appreciate if you would limit your verbal comments 
to 5 minutes. Your entire written statement will be entered 
into the record.
    And, Mr. Leonard, we'll now recognize you for 5 minutes. 
And, please, right up front, you got to pull that microphone 
right up in front of you and just make sure it's on. Thank you.


                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE JOE LEONARD, JR.

    Mr. Leonard. Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee, thank you for the opportunity to 
discuss USDA's improvements in the processing of equal 
opportunity complaints and efforts to improve the civil rights 
culture in the Forest Service and at USDA.
    As a sixth-generation Texan and lifelong student of civil 
rights but, more importantly, as a kid who received his first 
death threat at the age of 5 when I integrated kindergarten 
school in Austin, Texas, I am incredibly proud of my personal 
and professional commitment to civil rights that I made 45 
years ago. Every day I approach my role and responsibility as 
Assistant Secretary with steadfast appreciation for the impact 
my office has on the lives of the American people.
    As the longest serving Senate-confirmed African American 
appointee in the Obama administration and the longest serving 
Assistant Secretary for Civil Rights in the history of USDA, 
I've had the privilege of seeing firsthand the positive and 
transformative accomplishments of the Department of 
Agriculture's programs and employees, while also witnessing our 
collective interests and effort in continuously improving and 
expanding our work for all involved.
    When I assumed this position in 2009, USDA had a long and 
complex history of discrimination claims brought against the 
Department. The Office of the Assistant Secretary for Civil 
Rights has worked diligently for nearly 8 years to protect the 
rights and privileges of nearly 100,000 employees spread among 
2,200 parishes, counties, and boroughs throughout the United 
States as well as those receiving services from USDA.
    At the beginning of this administration, we started by 
examining our history and bringing to light the most 
challenging aspects of the Department's past. We made it our 
mission to change the culture of USDA, to root out exclusivity 
and build a culture of accessibility. As part of this effort, 
we created new policies, corrected past mistakes, and chartered 
a stronger, more inclusive path for our employees and the 
communities we serve.
    While there is still much to do, we have made significant 
progress by accomplishing goals such as: Reducing the 
approximate processing time for new civil rights program 
complaints from 4 years to 18 months, creating a universal form 
for program participants to report cases of discrimination at 
USDA, the settlement of Pigford II, Keepseagle, Keepseagle opt-
outs, and the construction of the Hispanic women's claims 
process, reducing the number of program form-related complaints 
by 60 to 70 percent. But that's not enough.
    We've also made profound strides in processing the 
Department's conflict complaints, especially in addressing the 
conflict of interest complaints filed against senior managers. 
After significant review of the complaint process, we took 
reasonable actions to ensure by 2014 we were processing 100 
percent of the complaints within the regulatory timeframe.
    These changes included but were not limited to changing 
management and staff--we changed three different directors 
within the division--an increase in the training and management 
of supervisory employees, in addition to changing the vendor 
that we utilize. Additionally, in accordance with the Office of 
Special Counsel report, we reviewed all 120 cases that exceeded 
the regulatory timeframes to identify whether any harm resulted 
from prior delays in processing.
    As a result, we determined that of the 120 cases that 
exceeded the 180 days, 102 cases were subsequently closed. 
Thirty-seven of them were settled before closing. Nine cases 
are with EEO at hearing at present, six were incorrectly 
identified, and only three of those cases remain open and are 
pending decision.
    Regarding the Forest Service, early in my career I met with 
the Forest Service leadership in four regions to emphasize the 
importance of preventing sexual harassment in the agency. The 
Office of the Assistant Secretary for Civil Rights in its 
oversight capacity has worked to support the Forest Service in 
the following civil rights initiatives: Reorganization of its 
civil rights structure, to have its national civil rights 
director report directly to the Forest Service chief, and all 
regional civil rights directors and staff report to the 
national civil rights director. These changes were completed in 
2016, and it's the first time in the 40-year history of the 
Forest Service it's ever been implemented. It's valuable to 
understand this, that now no one can say they don't know what's 
happening. It goes all the way to the chief and it's not stuck 
in a rural community in a far-off place.
    We conducted an independent climate assessment of how 
female employees in Region 5 are treated, including a report 
with findings and recommendations to the Forest Service.
    We strengthened and enhanced its sexual harassment 
policies, and having the Forest Service employees be the first 
at USDA to certify their agreement to abide by the Secretary's 
new antiharassment policy statement.
    We've also in the last 40 years,--and this is--the last 
thing that I read and this, these are new. This isn't the same 
old thing. We strengthened Region 5's standard operating 
procedures for reporting and responding to allegations of 
sexual harassment and misconduct reported to related 
retaliation. And we have engaged OASCR and the Forest Service 
has engaged OASCR in the enhancement of Region 5's informal EEO 
complaint process.
    The continued progress of the Forest Service's commitment 
to civil rights will be evidenced by this committee's continued 
oversight in the next administration. I thank you for this 
opportunity to present our progress.
    I thank you for the opportunity to review what our office 
has accomplished in nearly 8 years and I'll be happy to answer 
any questions you have.
    [Prepared statement of Mr. Leonard follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Ms. Lago, you are now recognized for 5 minutes.


                    STATEMENT OF LENISE LAGO

    Ms. Lago. Thank you. Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee, thank you for the 
opportunity to discuss our efforts to eliminate sexual 
harassment and gender discrimination in the Forest Service.
    I've been a Forest Service employee for 27 years. Before my 
career in the Forest Service, I worked in private industry, and 
in that job I was a target of sexual harassment. I was young. I 
didn't report what I experienced to management. I know 
firsthand the pain and the shame and the difficulty of talking 
about these issues.
    I want to acknowledge the courage and share my respect for 
Ms. Donnelly and especially Ms. Rice for coming here today to 
testify. My experience is also why I am so committed to 
eliminating all forms of harassment and discrimination from the 
Forest Service. I am deeply committed to these issues and 
making our workplace and our working environment a place where 
all employees are given an opportunity to succeed and thrive, 
based on their talent.
    Throughout my career in the Forest Service, I've also 
experienced the dedication and commitment of our employees at 
all levels to work together for a working environment that's 
free of harassment where all employees can thrive.
    I believe we're making and sustaining progress, and there's 
more that we need to do. Specifically, in the last 5 years, 
we've improved our capacity to respond to misconduct and 
specifically claims of harassment and sexual harassment. The 
misconduct branch now reports directly to me. The civil rights 
and EEO branch report directly to the chief. We have a national 
review and assessment team to provide top-level oversight, to 
ensure consistency, maintain--to avoid favoritism, and keep our 
eyes on the most important issues.
    We've implemented a revised antiharassment policy 
addressing any type of harassment and mandating reporting and 
investigating timeframes. We publish quarterly data on 
misconduct, which both educates the workforce on unacceptable 
behavior and demonstrates that perpetrators are held 
accountable.
    We are improving and we are not done. I know that there 
have been stories in the press recently regarding sexual 
harassment in the Forest Service. Those stories are disturbing 
and hard to read. I can't discuss cases that are the subject of 
litigation or ongoing investigation, but I sincerely want to 
help you help me. Where we have completed investigations of 
misconduct, I am willing to share those, to the extent 
permitted by law.
    I share your concern for employee welfare and safety. I 
look forward to working with you and the members on this panel 
to improve what we are currently doing. And while I still have 
a minute, I want to assure you, we investigate all allegations. 
We hold people accountable. We publish the results so the rest 
of the workforce knows what we're doing, so it's visible and 
transparent, and we train and train and train our workforce on 
acceptable behavior, our leaders on acceptable behavior, and 
the procedures in the event they experience unacceptable 
behavior.
    Thank you very much and I look forward to your questions.
    [Prepared statement of Ms. Lago follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Ms. Donnelly, you are now recognized for 5 minutes.


                   STATEMENT OF LESA DONNELLY

    Ms. Donnelly. Thank you. Chairman Chaffetz, Ranking 
Member----
    Chairman Chaffetz. Pull that microphone just a little bit 
closer if you would. Put it right up there. Thank you.
    Ms. Donnelly. All right. Thank you.
    Chairman Chaffetz, Ranking Member Cummings, and committee 
members, thank you for inviting me here today to testify about 
sexual harassment and discrimination at the USDA Forest 
Service.
    My name is Lesa Donnelly. I worked for the USDA Forest 
Service in Region 5, California, in positions of administrative 
and fire support from 1978 to 2002. I'm the vice president of 
the USDA Coalition of Minority Employees. It is a USDA-
sanctioned independent organization that assists USDA employees 
in issues of harassment, discrimination, hostile work 
environment and reprisal.
    In 2008, President emeritus Lawrence Lucas and I testified 
before this committee, and along with current President Ron 
Cotton have been invited to the White House three times under 
the previous administration to discuss harassment, 
discrimination, and reprisal against USDA employees and black 
farmers.
    I watched the recent hearing on the Park Service, and I 
could not help but notice the difference between Secretary 
Jewell's response to our 2014 report of sexual harassment at 
the Grand Canyon and Secretary Vilsack's response to the same 
issues. I commend Secretary Jewell's quick call for an 
investigation, transparency, and decision to open up the 
investigation across the entire Park Service. It is a far cry 
from Secretary Vilsack's actions. We have been reporting 
egregious incidents of sexual harassment, workplace violence, 
job discrimination, and reprisal to Secretary Vilsack since 
2009, to no avail.
    Before any cultural change can occur, the agency must 
acknowledge the scope of the problem and be willing to make a 
good faith effort to change it. Despite mountains of evidence, 
mountains of evidence, USDA and Forest Service have been 
unwilling to do this. Forest Service management will not 
investigate complaints properly; they will not hold 
discriminators accountable; they will not settle EEO 
complaints.
    To emphasize the enormity of the problem, it is important 
to point out that Region 5 was under court-ordered oversight to 
address gender discrimination from 1971 to 2006, over 30 
consecutive years. I was present in the agency during those 30 
years in between. The Forest Service was unwilling to make an 
honest effort to increase diversity under the 1971 Bernardi v. 
Madigan class action consent decree. Forest Service management 
formented an attitude that unqualified women were taking men's 
jobs and were only hired to satisfy diversity requirements. 
This attitude became a cultural norm and it plagues us to this 
day.
    The backlash against women, hired under Bernardi, was 
tremendous, and in 1994, just 6 months before Bernardi ended, I 
filed the Donnelly v. Glickman class action on behalf of 6,000 
women in Region 5, based on harassment, sexual harassment, 
hostile work environment, and reprisal.
    The second court-ordered consent decree lasted through 
2006. Working conditions did improve for that short period of 
time, but by 2008 I started contacting the Secretary and the 
chief again about discrimination, assaults and reprisal. Again, 
they were nonresponsive. I wrote letters to Secretary Vilsack, 
Chief Tidwell, President Obama, Valerie Jarrett, Michelle 
Obama, and I even wrote to Mrs. Vilsack, asking for help. There 
was no response from anyone.
    In 2011, we finally got a response. Valerie Jarrett's staff 
contacted me and said that President Obama was concerned about 
the harassment and violence against women in Region 5. He 
advised the Secretary to correct the problems out here. The 
Secretary was unwilling to do so and conditions for women did 
not improve and, in fact, they have worsened.
    Additionally, in 2011, the Coalition of Minority Employees 
and several female firefighters met with Secretary Vilsack and 
Chief Tidwell. In the entire discussion, Secretary Vilsack's 
only answer to our concerns was to discuss the success of his 
cultural transformation program. I question how Secretary 
Vilsack can view his civil rights program successful when women 
are raped but are unable to report it due to the retaliatory 
culture.
    And if you go out in the Forest Service and speak to any 
employee in the field and ask them about the cultural 
transformation and what it means to them, 99 percent will tell 
you, I have no idea what it is.
    In 2013, the coalition and several Region 5 female 
firefighters met with Secretary Vilsack and Chief Tidwell's 
staff. Just prior to traveling to Washington, I received a call 
from a female firefighter that had been raped by a male 
coworker, but would not report it. She didn't report it because 
she knew Alicia Dabney had been fired for reporting an 
attempted rape. There are many women suffering in this manner.
    When I shared this information with officials and the media 
and I received only a platitude, we do not--there's zero 
tolerance for sexual harassment and hostile work environment. 
We've heard it over and over, and it's just lip service.
    Their failure to deal with these issues resulted in another 
class action, the Bush v. Vilsack female firefighter class 
action that was filed in August 2014. In January 2015, the 
agency agreed to mediate the Bush v. Vilsack class complaint. 
At a huge cost to the taxpayers, six class agents met in San 
Francisco with USDA officials. To our great surprise, after 
less than an hour of general discussion, the agency walked away 
from the table. I fear that this new administration is going to 
have another class action lawsuit filed in 2017, and it will be 
a tremendous cost to the taxpayer again.
    There are two indicators that USDA and Forest Service are 
unwilling to acknowledge the pervasive and endemic 
discrimination against women and others. First, Chief Tidwell 
stated twice this year that the female firefighters' 
discrimination claims are older allegations. These public 
comments are his continued attempts to minimize the serious 
civil rights violations and undermine our efforts to have them 
acknowledged and addressed. These older allegations, to which 
Chief Tidwell referred, are the women who have been in the EEO 
system for years, because of continued reprisal, refusal to 
hold repeat offenders, and there are many, accountable, and the 
agency's refusal to settle EEO complaints.
    As far as recent issues, last month I was contacted by a 
female firefighter whose district ranger went on a diatribe to 
her, and he talked about how smelly and disgusting female 
firefighters, that go on fire assignments, get and that it 
should be mandatory that they should be forced to shower daily. 
The woman was humiliated, having to stand there and listen to 
that. The most recent incident I received was just last week. 
Another female employee was raped and she is afraid to come 
forward.
    These issues keep me from sleeping at night. When I know 
that there's a woman out there that is raped, it's hard to 
sleep. And I wish it was hard for Chief Tidwell to sleep and 
Secretary Vilsack, because maybe we'd get something done.
    In conclusion, the question remains how do we address these 
problems and where do we start? I propose that in order to 
effect a real cultural change, there needs to be a commitment 
from the top for a collaborative effort between agency 
employees and external organizations.
    A strategy must be developed with implementation 
timeframes, measurements for success, and evaluation. And it 
should be similar to the civil rights action team under former 
Secretary Glickman. It was a great model. The process should be 
transparent, inclusive, and a focus should be on change and 
accountability. And above all, Congressional oversight is 
needed. Thank you.
    [Prepared statement of Ms. Donnelly follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you very much.
    Ms. Rice, you are now recognized. Please bring that 
microphone up. There we go. Thank you.


                    STATEMENT OF DENICE RICE

    Ms. Rice. Good morning, Chairman Chaffetz and Ranking 
Member Cummings, and members of the committee. Thank you and 
it's an honor to be here.
    My name is Denice Rice and I have been in structure----
    Mr. Connolly. Mr. Chairman, could I ask that the witness 
please speak into the microphone directly so we can hear her.
    Chairman Chaffetz. Pull it. There you go.
    Ms. Rice. My name is Denice Rice and I have worked both in 
structured and wildland fire for over 20 years. I truly love my 
job and the people I work with.
    In 2011, I reported to my supervisor that I was being 
sexually harassed by my second-line supervisor. Women are often 
disregarded, not taken seriously, and passed over. I have 
personally experienced this. The agency provides protections 
for its offenders, often promoting them, while the victims are 
shattered, left behind, and nowhere to turn.
    Women are treated differently in regards to training, 
assignments, and promotion. Women who report sexual harassment 
are repeatedly retaliated against. It is your word against 
theirs. The moment you speak up, you are committing career 
suicide. Zero tolerance is baloney. The system is rigged 
against women for reporting sexual harassment and assault. The 
agency protects the offender.
    From 2009 to 2011, my second-line supervisor repeatedly 
sexually harassed me and assaulted me. I filed a complaint and 
the instant my life changed. Management removed me of all my 
supervisory responsibilities, moved me from my location, 
isolated me to the office of where the perpetrator's friends 
were and where his wife worked. I never have received a poor 
evaluation.
    Numerous investigations were held. There was an OIG 
investigation with multiple interviews with multiple 
investigators. I had to relive these incidents over and over 
and over again. One of the investigators provided graphic 
details to my peers of what my second-line supervisor had done 
to me, including the assault. I had lost my reputation, my 
dignity when they made my situation public. My family was 
destroyed. My husband felt helpless, because he wasn't allowed 
to protect me. My life was a living hell.
    Another example is when the district ranger called an all-
hands Fire meeting, with all my peers in Fire, to discuss what 
happened to me and what was happening to the perpetrator and 
the investigations. I begged them not to make me attend. I was 
directed to go. As soon as the district ranger started 
discussing what happened to me and people turned and looked at 
me, I was on display. These were my peers, people I've known 
for years. I felt responsible, degraded, and I was humiliated. 
My perception was I was being blamed for the destruction of the 
Fire organization. I quickly left the meeting, shaking and in 
tears. There was talk of putting me on AWOL for leaving.
    I was being attacked by the ones who were supposed to 
protect me. The agency protected my perpetrator, and while he 
was under investigation for sexual assault he continued to 
supervise women and was allowed to take agency-paid 
developmental training to promote his career, and act as 
district ranger. This message meant that nothing was wrong and 
I was the problem.
    I kept hearing he's entitled to due process. And this 
lasted for months. After the investigations were done, they 
were given to all the district rangers, who read all the 
details; and once again violating my confidentiality, they 
discussed it and they determined that he needed to be removed. 
But before they were going to remove him, the Forest supervisor 
took him out for coffee and advised him of the notice. He 
retired the next day.
    Then he was directly hired on a California incident 
management team, which meant we could both be assigned to the 
same fire incident, and allowing him to continually work with 
women. And just this year, they brought him back, Fire 
management brought him back, to give a motivational speech to 
the Eldorado Hotshots on my forest. I have since then filed 
additional reprisal complaints.
    From working with the Coalition of Minority Employees and 
being a class action agent for the female firefighter class 
action, I know what happened to me happened to women all over 
the region and Forest Service. I don't know of any women who 
have been able to recover and lead successful careers after 
filing sexual harassment claims. People need to be held 
accountable for their actions. Management needs to protect its 
employees and remove the offenders.
    Thank you. I'd be glad to answer your questions.
    [Prepared statement of Ms. Rice follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. We appreciate you sharing 
that.
    We'll now recognize the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Ms. Rice, I want to thank you for being here, Ms. Rice, and 
I want to tell you I doubt any of the members of this committee 
that I'm looking at now have any idea what you just described, 
but we do realize and recognize courage when we see it, and we 
want to thank you for what we can imagine is an impossibly 
difficult task.
    I want to change gears for just a second. You testified 
early on that you loved your job. I want you to tell the 
members of the committee what you loved most about your job as 
a firefighter.
    Chairman Chaffetz. Put your sorry--microphone----
    Ms. Rice. Being in the woods, protecting the forest, 
fighting fire.
    Mr. Gowdy. And you've done it for how long?
    Ms. Rice. Over 20 years.
    Mr. Gowdy. All right. To the extent you feel comfortable, 
can you tell the members of the committee what harassment/abuse 
you experienced.
    Ms. Rice. From the perpetrator or just in general?
    Mr. Gowdy. From the perpetrator.
    Ms. Rice. He was constantly making comments. He removed me 
from my office where I had a counterpart to an office back and 
out of the way where he could come in the office and make 
comments and approach me. The reason I filed was because I was 
in his office and we were having an argument and he had taken a 
letter opener and poked my breasts, both breasts, with a smile 
on his face in an arrogant way like he could get away with it. 
And I stood there in shock.
    He has cornered me in the bathroom. He has lifted my shirt 
up. He has stalked me. I would wait until everybody would leave 
so I could pull in, because I work in the field, and he would 
be waiting for me. He called me constantly. He interfered with 
everything. He stalked me.
    Mr. Gowdy. Ms. Lago, Ms. Rice testified that the details of 
her complaint were made public. Why would that possibly happen?
    Ms. Lago. Well, it is not permitted. It's the first time 
that I've heard the details were made public. Per our protocol, 
only people involved in the investigation----
    Mr. Gowdy. Listen. I don't want to be rude, but I really 
don't give a damn about protocol. Do you doubt what Ms. Rice 
just testified to, that the details of her accusations and 
allegations were made public?
    Ms. Lago. Well, I'm just saying I never heard that before 
now. I'm just----
    Mr. Gowdy. So do you doubt it is my question? Not whether 
or not you've heard it. Do you doubt it?
    Ms. Lago. No, I don't doubt it.
    Mr. Gowdy. Okay. Well, if it's against protocol, as you 
say, and you don't doubt that it happened, what have you done 
about it?
    Ms. Lago. I just heard it. I just heard about it.
    Mr. Gowdy. What are you going to do about it?
    Ms. Lago. I'm going to ask what happened following her 
investigation, who knew about it, and why.
    Mr. Gowdy. Well, if memory serves, her perpetrator was 
allowed to retire. Is that correct? Had you heard that before 
today?
    Ms. Lago. Yes.
    Mr. Gowdy. Okay. Why? Why was he allowed to retire?
    Ms. Lago. When someone is proposed for removal, they have a 
right to either retire or resign.
    Mr. Gowdy. So what consequences would there be for his 
misconduct if he was allowed to retire?
    Ms. Lago. There could be legal action.
    Mr. Gowdy. Such as?
    Ms. Lago. He could be sued. He could be----
    Mr. Gowdy. Privately by her?
    Ms. Lago. Yes.
    Mr. Gowdy. What did you all do? You were the employer. What 
did you do?
    Ms. Lago. We fired him.
    Mr. Gowdy. You didn't fire him; he retired. We just 
established that.
    Ms. Lago. He retired in lieu of being removed from his job.
    Mr. Gowdy. Well, then if there's no difference between 
retiring and being fired, why didn't you fire him? There must 
be some benefit to retiring. What is that benefit?
    Ms. Lago. You don't have removal on your record.
    Mr. Gowdy. So you did confer a benefit to him, despite the 
fact that you don't doubt the allegations that she just made.
    Ms. Lago. We don't have an alternative to fire someone and 
not offer them retirement.
    Mr. Gowdy. Well, I just heard the most glowing account of 
all of the improvements that have been made over the past 8 
years. And you mean to tell me that someone can engage in the 
conduct that Ms. Rice just described and avoid all consequence 
whatsoever?
    Ms. Lago. Per the Federal regulations, yes. Someone can 
retire or resign in lieu of being removed.
    Mr. Gowdy. Ms. Rice, how long was the investigation 
ongoing?
    Ms. Rice. At least 6 months.
    Mr. Gowdy. You testified that you were forced to give 
multiple accounts of your harassment/abuse.
    Ms. Rice. Correct.
    Mr. Gowdy. That would be the antithesis to best practices 
for sex assault victims. So, Ms. Lago, why would victims of 
sexual harassment or assault be forced to give multiple 
testimonies or accounts?
    Ms. Lago. At first, the issue was referred to law 
enforcement. Law enforcement referred it to the IG, because of 
the nature of the offense. I'm not sure how far the IG 
investigation went. So, to answer your question, a reason 
someone might have to give an account more than once is they 
might have to speak to an OIG investigator because of their 
investigation; they might have to speak to law enforcement; and 
if either of those investigations aren't conclusive then we do 
a misconduct investigation.
    Mr. Gowdy. Do you agree that what Ms. Rice described is a 
crime?
    Ms. Lago. Yes, I do.
    Mr. Gowdy. All right. So she would talk to law enforcement 
first?
    Ms. Lago. She spoke to her supervisor----
    Mr. Gowdy. Okay.
    Ms. Lago. --who referred the issue----
    Mr. Gowdy. Who was the first statement made to?
    Ms. Lago. I don't know.
    Mr. Gowdy. All right. Well, let me encourage you to do this 
in the past when you all are describing the glowing progress 
that you have made. Making victims give multiple accounts, tell 
what happened to them multiple times runs afoul of everything 
every expert in sex assault and sex harassment cases teach. It 
runs afoul of all of it. So if you can find a way to limit 
victims to just having to relive it one time, I would encourage 
you to do so.
    And if you can share the regulations that allow someone 
that commits the conduct that she just described to be 
conferred the benefit of retirement as opposed to removal, if 
you could share those regulations with the chairman and the 
ranking member, I would be most grateful to you.
    Ms. Lago. I will do that.
    Mr. Gowdy. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize ranking member Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I ask 
unanimous consent that Congresswoman Speier, who previously 
served on our committee, be allowed to join the committee today 
and participate in the hearing.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. I also have another unanimous consent request 
that a statement from Congressman Connolly be part of the 
record, Mr. Chairman.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. I just want to engage in a brief colloquy 
with you. Mr. Chairman, the committee has received statements 
from a number of whistleblowers regarding the EEO program in 
the Department of Agriculture, including from the following 
individuals: Nadine Chatman, Gayle Petersen, Akio Watson and 
Tori Jones. These individuals have raised serious concerns 
about the management of the EEO program. In many cases, they 
allege that their own EEO complaints have been handled 
improperly. And now staff have received these and I believe 
your staff have received them as well.
    I know you share my concern about these allegations and I 
hope we can work together to review these allegations, 
investigate them, and take action in a bipartisan way.
    Chairman Chaffetz. Absolutely. Again, I appreciate the 
ranking member's passion and commitment, and we will continue 
to work together and to pursue that and to make sure that those 
people who have stepped forward and shared this information are 
properly protected under the Whistleblower Act. So absolutely.
    Mr. Cummings. One other thing. I ask unanimous consent to 
place into the record an article entitled Out Here, No One Can 
Hear You Scream, March 16, 2016, Huffington Post article.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. Thank you very much.
    Ms. Lago, I want to pick up where Mr. Gowdy left off, 
because you said something that really concerns me and I know 
that it will concern him too. We have this article that 
appeared in the Huffington Post, and it appeared--this 
apparently was a--this is a scathing article about your 
Department, about Agriculture, and it details Ms. Rice's case. 
I mean, it's public, right here. It even has a picture of her 
in it.
    When did you come on board?
    Ms. Lago. In August of 2011.
    Mr. Cummings. Well, you just said that you didn't even know 
about it. I can't imagine that somebody could have an article, 
it's about 16, 17 pages and it's got this picture of her and it 
describes her situation in detail, but you just said, sitting 
here at the table today, you just realized that it had been 
made public. You didn't read this article?
    Ms. Lago. If I may clarify, what I said I didn't know about 
was that her situation----
    Mr. Cummings. You said you didn't know it had gone----
    Ms. Lago. --was shared with district rangers. I wasn't 
aware of that. I was aware of this case.
    Mr. Cummings. And that this had been public, made public. I 
think I'm following up on what Mr. Gowdy said. I mean, you had 
asked her--I'd yield to the gentleman. That you had asked her 
about--she had said to you that this was the first time that 
she knew about it, right?
    Mr. Gowdy. I think the gentleman's recollection is correct. 
I was trying to establish that she had to give multiple 
accounts of what had happened to her, that the perpetrator was 
allowed to retire instead of be disciplined, and I was trying 
to get a better understanding of why that could have happened 
and what she knew and when she knew it, Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Now, let me--it just concerns me that you sound like you 
didn't know about that, because I think that if you were 
anywhere else, in one of our offices and something had been 
written about our office and you were a major employee in there 
and this was your purview, you know, it just bothers me that 
you would just be finding out, but be that as it may.
    Dr. Leonard, last year the Office of Special Counsel sent a 
letter to the President of the United States. It warned that 
the USDA civil rights program, and I quote, ``has been 
seriously mismanaged, thereby compromising civil rights of USDA 
employees.'' When you see a letter like that, alarm bells 
should go off. Would you agree?
    Mr. Leonard. Yes, sir.
    Mr. Cummings. I can't hear you. You said yes, sir?
    Mr. Leonard. Yes, sir.
    Mr. Cummings. Okay. You claim that significant improvements 
have been made, but your claim is hard to reconcile with the 
approach your Department took in response to my request in 
January. For example, in my letter I asked for copies of 
external reviews of USDA's EEOprogram. I asked for these 
external reviews because the USDA claimed in its 2014 report on 
its EEO program that, and I quote, ``the success of USDA's 
recent efforts to confront the history of civil rights abuses 
has been recognized and verified by a host of internal and 
external parties and metrics,'' end of quote. That's what USDA 
said. You touted these external reviews in your 2014 report.
    So why hasn't the Department provided these external 
reviews that I asked for 11 months ago? I mean, it seems like 
that would be something that you would get to me very quickly 
since it's something that is supposed to be complimentary. Help 
me with that.
    Mr. Leonard. Congressman Cummings, it's--I want to 
apologize firstly for not being able to provide the documents 
to you. As Ms. Rice said, there are a number of confidentiality 
requirements. I did not find out until the conference call I 
was on, with your staff on Monday, that some of those documents 
were not provided. Because even in that conference call, I told 
your staff we gave them the information. We gave them the 
information. It wasn't until after the fact that I found out 
that persons came here and read it to you and didn't give it to 
you. I collected the information so you would have it.
    So I do want to apologize about the miscommunication 
between our staff and your staff. And I do look forward to 
getting you some of the additional information----
    Mr. Cummings. So when will the documents be produced? I 
guess that's the question.
    Mr. Leonard. The documents are produced in-house. They're 
internal documents.
    Mr. Cummings. But when will we have them?
    Mr. Leonard. I will have to talk to OGC and try to get them 
as soon as possible to you. As you know, when we--before we can 
hand anything over, it goes to----
    Mr. Cummings. Again, keep in mind I asked for them 11 
months ago.
    Mr. Leonard. My statement today was the OMB, OBPA, and I 
apologize.
    Mr. Cummings. Can you give me some kind of time? Because I 
can't--time is short.
    Mr. Leonard. Two weeks.
    Mr. Cummings. All right, thank you, 2 weeks. I just have 
just a few more things.
    Dr. Leonard, OSC wrote to the President, that your office, 
the Office of the Assistant Secretary of Civil Rights, and I 
quote, ``has an unusually high number of complaints filed 
against its own leadership.'' We asked for information about 
these complaints.
    During the last meeting with my staff, your staff read 
aloud some vague and cursory information about a dozen cases 
filed against senior officials, but your staff refused to 
provide the documents they were reading from. Instead, they 
said that they had a car--I mean, you can't make this up.
    Instead, they said they had a car waiting outside and had 
to rush out. It wasn't until 7 p.m. last night on the eve of 
this hearing that we finally received the written summary 
document.
    Why did that happen? Help me with that.
    Mr. Leonard. As you know, Ranking Member Cummings, I 
wasn't--I didn't attend that meeting. I don't know anything 
about a car. I provided the documents to the staff that came 
here, and my assumption was they were providing them to you. I 
found out, again, they read the documents to you, and then I 
did hear about the car incident and then they ran off.
    I was shocked to hear about this on Monday. That's why I 
wanted to make sure I got the information to you. And that is 
the information that you wanted, sadly, 6 to 7 months ago that 
you received on the eve of this----
    Mr. Cummings. One other thing. Dr. Leonard, you know, my 
goal has always been to try to be as effective and efficient as 
possible and make sure that EEO operates in that way. Will you 
commit to providing everything I requested in my letter in 
January and everything the chairman and I requested in our 
subsequent letter within the next 2 weeks?
    Mr. Leonard. Yes, sir.
    Mr. Cummings. And finally, Ms. Donnelly, in my last few 
minutes, my last minute, I want to discuss just one key issue. 
In your experience, is the Department's handling--You know, I 
sat here and even as I listened to you, to Ms. Lago, and I 
listened to you, it sounds like we're talking about two 
different worlds. I mean, it's like night and day. And I've 
never seen testimony so far apart.
    And so, in your experience, is the Department's handling of 
EEO cases improving or declining, and what has been the 
experience of the members of your organization?
    Ms. Donnelly. In our experience, it's declining, and it's 
declining in just about every facet of the EEO process. It 
starts when an employee calls to file an EEO complaint. And 
keep in mind, employees really know nothing about the process. 
When you're a firefighter, you know about fighting fire, you 
don't know about the EEO system. So they have to have some 
faith that they are going to be treated correctly when they 
file a complaint and given correct information.
    Employees will call. They won't get calls back from the EEO 
intake person. EEO counselors will tell them they don't have a 
case when they do, because they'll call me and tell me that. 
And I'll look at what happened, I'll go: Well, they shouldn't 
have told you that.
    Then when they get into the formal process, they wait 
months for an investigation. The investigators come. I don't 
know how they train the investigators, but some of these 
investigations are so poorly done that you can't make heads or 
tails of what is being said in the report, which is critical 
for the employee.
    And I have made numerous complaints to Eric Atilano and 
Robert Shinn about they lose reports of investigations and they 
don't send them to us. They miss dates. They will send in 
address changes and they don't put the address change in the 
database, and then the employee doesn't get--you know, the 
stuff goes to their old address. It's just--it's numerous 
problems. And then as you go further and get towards the 
hearing, it's just delay, delay, delay.
    Mr. Cummings. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Chaffetz. I recognize the gentleman from Alabama, 
Mr. Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Donnelly, clarification. You filed your suit--yeah, I'm 
a freshman, I sit way down here--you filed your suit in 2000. 
Is that correct?
    Ms. Donnelly. I filed Donnelly v. Glickman as a lawsuit in 
1995.
    Mr. Palmer. But in 2002 there were 190 complaints in 
California, more than any other region. That's Region 5. Is 
that correct?
    Ms. Donnelly. That's correct.
    Mr. Palmer. So after you filed the complaint, 7 years later 
we had still a major problem in that region. That's correct?
    Ms. Donnelly. Yes, that is correct.
    Mr. Palmer. And then 10 years later we've still got the 
same problem in the same region.
    Ms. Donnelly. Yes, we do. Still has the highest number of 
complaints.
    Mr. Palmer. Ms. Rice, you were employed in Region 5. Is 
that correct?
    Ms. Rice. Yes, that is correct.
    Mr. Palmer. Ms. Lago, following up on Mr. Gowdy and Ranking 
Member Cummings' comments, I don't believe you when you said 
you didn't know about this. I also have a copy of this article 
from the Huffington Post, ``Out Here No One Can Hear You 
Scream.'' It's amazing to me that this has been going on so 
long. And it's escalating. It's not getting better. How do you 
respond to that? And would you answer truthfully?
    Ms. Lago. Thank you. I'd like to clarify. I did not intend 
to say that I didn't know about this. I do know about this. I 
thought the gentleman was asking me did I know that her 
investigation had been shared with district rangers. That is 
what I was saying I didn't know about. Yes, I knew about this 
case.
    Mr. Palmer. Does the name Cheyenne Szydlo, do you know that 
name?
    Ms. Lago. No, I don't know.
    Mr. Palmer. How about Dave Loeffler?
    Ms. Lago. Say that again, please.
    Mr. Palmer. Dave Loeffler.
    Ms. Lago. No, I don't know that name.
    Mr. Palmer. How about Alicia Dabney?
    Ms. Lago. Yes, I know that name.
    Mr. Palmer. And Chelly Kearney?
    Ms. Lago. I'm sorry. I couldn't hear you.
    Mr. Palmer. Chelly Kearney.
    Ms. Lago. No, I don't know that name.
    Mr. Palmer. Mike Harris?
    Ms. Lago. No, I don't know that name.
    Mr. Palmer. They're all in this article.
    Ms. Lago. They don't all work for the Forest Service.
    Mr. Palmer. It's all part of the pattern, though, that's 
going on with sexual harassment, and apparently throughout 
various agencies of the United States Government. I can't 
remember how many times we have had hearings discussing this.
    And then in regard to Ms. Rice and reading what is in the 
article, listening to her testimony, I mean, the guy wasn't--
Beckett wasn't fired, was he?
    Ms. Lago. As per Federal law, he was allowed to retire----
    Mr. Palmer. You know what?
    Ms. Lago. --and he was proposed. For removal.
    Mr. Palmer. Yeah, that sounds suspiciously like your 
protocol answer to Mr. Gowdy. And I associate myself with his 
response in that regard. The guy not only should have been 
fired, he should have been arrested.
    And I don't understand why this continues to go on, the 
Park Service, the Forest Service. I mean, isn't it your job to 
investigate these things?
    Mr. Leonard, I mean, what are you guys doing about this?
    Mr. Leonard. I would say that things have improved a lot, 
going back to my original statement. Prior to----
    Mr. Palmer. How can you say that when you've got Region 5 
that has this record?
    Mr. Leonard. In 1999, the United States Department of 
Agriculture, there were around 1,000 complaints a year. Last 
year we had--in 2001--I'm sorry. Last year we had 540. In the 
middle 2000s, there were around--2005, 2006, 2007--there were 
around 750 complaints a year. Since 2009, when this 
administration came in, we haven't had over 540 complaints.
    From 2001 to 2008, the Department--the United States 
Department of Agriculture had 12 EEO findings, from 2001 to 
2008. From 2009 to 2016, we've had 127 findings. From 2000--
2000--let me get this right, because the Secretary constructed 
blueprints.
    At one time, from 2000 to 2010, my office would intake the 
EEO complaints, and then we would give them back to the agency 
to do investigation. We were 31 percent timely in those years. 
We were not timely and potentially subject to sanctions.
    The Secretary gave our office even more responsibility, for 
two parts. One, he didn't like the idea of when someone files a 
complaint, that the office that it's filed is investigating the 
complaint. So it came to the Department. Since that time, we 
have been--we went from 31 percent timely on our EEO 
investigations to last year we were 59 percent. But we've had a 
high of 74 and 65 and 63 in the last 4 years.
    Our processes are improving. We have made generational 
change in the last 7 years. I promise you. In addition to the 
settling of the class action suits. In addition to knocking 
down former complaints from 100 to 30. I think it was 41 this 
year. In addition--so I can give you a lot of instances.
    And I would say this----
    Mr. Palmer. Why don't you provide that in writing to the 
committee. I want to wrap up my period of questions here. And I 
appreciate your response to that.
    Mr. Palmer. My problem with it is that we've had people in 
here from the EPA, we've had people in here from other 
agencies. I know this is not the Forest Service, but it seems 
be a culture within Federal agencies. We keep having these 
hearings, Mr. Chairman. And today I think tops them all, from 
what I heard from Ms. Rice's testimony, from what's in this 
article, and the fact that Ms. Lago doesn't recognize some of 
the names from some of these other people.
    This is a cultural problem. And as much attention has been 
given to this, particularly by this committee, for us to have 
to keep bringing this up, that just defies common sense for me. 
This is something that in this day and time there shouldn't be 
any complaints.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'm going to recognize myself. We would normally go to the 
Democratic side. And we do see Ms. Speier, but per the rules of 
the committee, we go through members who are on the committee 
first before we go do those that have been UC'd on.
    I want to follow up here. Ms. Lago, what about--you said 
you, quote, ``hold people accountable,'' end quote. How long 
have you been in your current position?
    Ms. Lago. Since August of 2011.
    Chairman Chaffetz. And how many people since that time have 
been fired?
    Ms. Lago. In the last--so last year, 200 people were fired. 
The year before that, 115.
    Chairman Chaffetz. And how many for sexual harassment?
    Ms. Lago. In the last 3 years? Seventy people----
    Chairman Chaffetz. Whatever timeframe.
    Ms. Lago. Seventy people have been disciplined for sexual 
misconduct; 30 have been fired or removed.
    Chairman Chaffetz. When you say ``or removed,'' when you 
say ``removed,'' does that include those that would just retire 
or quit?
    Ms. Lago. Retire or resign, yes. Seven were----
    Chairman Chaffetz. So following up with us, I don't expect 
you to memorize all this off the top of your head, I need you 
to detail that for us with specificity. Don't break it into--
you can't say fired or just retired. I want to see the 
difference between the two. Because the concern is that you 
don't actually fire somebody. They get their full benefits. 
They get everything else.
    Now, this person in Ms. Rice's case, why was he hired to 
come in and provide a motivational speech?
    Ms. Lago. So I was very disturbed to learn that as well. I 
found out about that last week. What I understand is he 
encountered the existing hotshot superintendent at an off-
forest event for retirees or a going away party or something 
like that. The current superintendent invited him to a 
gathering. It's not clear that that superintendent knew the 
history. I'm not sure.
    When the forest supervisor found out after the event where 
Mr. Beckett appeared, he sat down all of his staff and said: We 
can't ever have this guy anywhere at any of our functions.
    Chairman Chaffetz. And that's one of the consequences of 
not having a disciplinary action, right, just allowing him--
patting him on the back saying, you know, good job. How much 
did you pay him? How much did the taxpayers pay this guy?
    Ms. Lago. He wasn't paid to appear there.
    Chairman Chaffetz. He did the motivational speech and just 
did it out of the goodness of his heart? It was just free?
    Ms. Lago. That's correct.
    Chairman Chaffetz. There was no paid compensation?
    Ms. Lago. Yes, sir. No pay.
    Chairman Chaffetz. Ms. Rice, can you shine and illuminate 
any--based on what she just said, what's your perspective of 
this?
    Ms. Rice. The superintendent did know Beckett. Knew him, 
worked for him for many years, knew of the incident. He did.
    Chairman Chaffetz. Give me some more details of this. He 
worked for him and he knew of that incident. Why would he have 
known of the incident?
    Ms. Rice. Because the entire forest knew. They had an all-
hands meeting with all the people from fire. He was one of 
attendees.
    Chairman Chaffetz. The one that was detailed in the article 
that Ms. Lago says she never read, that article?
    Ms. Rice. The current superintendent for the hotshots used 
to work for Beckett and was there when I was being harassed. He 
was there--not--and then he was also there during the 
investigations. He was very aware of what happened to me.
    Chairman Chaffetz. Ms. Lago, do you dispute what Ms. Rice 
is saying?
    Ms. Lago. No, I don't.
    Chairman Chaffetz. So what are you doing about it?
    Ms. Lago. So what we're doing is, the forest supervisor 
instructed his staff never to let that happen again.
    Chairman Chaffetz. Is he going to get a bonus?
    Ms. Lago. He whom?
    Chairman Chaffetz. The person who brought in the person who 
had committed this atrocity against Ms. Rice. There's somebody 
who had to actually approve this and set it up, right? That 
person. What are you going to do? What's the repercussion to 
him or her? Who is that person?
    Ms. Lago. I'll undertake a misconduct investigation on the 
actions of that person.
    Chairman Chaffetz. And you'll get back to us on what the 
ramifications are?
    Ms. Lago. Yes, I will.
    Chairman Chaffetz. Explain to me why it takes so long to go 
through these harassment issues. Four years, you said, was the 
average time that it took? And that's been improved to 18 
months?
    Mr. Leonard. That's the program if it was a form complaint. 
That would be the form side, the program side.
    Chairman Chaffetz. I'd like to learn more about this. My 
time is very short. I want to go--this is--we have had a lot of 
interaction with Carolyn Lerner. She is the Office of the 
Special Counsel. She issued this report on--a letter to the 
President on May 18 of 2015.
    Ms. Lago and Mr. Leonard, I'd like you to respond to that. 
Do you dispute anything in her findings?
    Mr. Leonard. I do.
    Chairman Chaffetz. And what do you dispute in her findings?
    Mr. Leonard. The Office of Special Counsel, as you know, 
has so much power. It could have had an order of relief 
demanding my office take action right way. It could have even 
had a recommendation. But it had exactly what it said. It said, 
``Make them whole.'' It didn't provide the direction. When I 
provided the information to----
    Chairman Chaffetz. Okay. Well, let me----
    Mr. Leonard. When I provided the information yesterday, the 
majority of--and it's important to say alleged discrimination 
here and there. The alleged. The information--when people--I do 
this all the time.
    Chairman Chaffetz. That's not what it says, sir. That's not 
what it says.
    Mr. Leonard. It doesn't have an order----
    Chairman Chaffetz. I'll read it to you. I'll read it to 
you. I'll read it to you. Okay?
    ``The proposed corrective actions do not provide sufficient 
redress for affected individuals?'' It doesn't say anything in 
that sentence about alleged or anything else.
    Let me read the paragraph right before it, because it's--
it's section 4, and with the indulgence of the committee here, 
I am going to just read this.
    ``I have reviewed the original disclosure, the agency 
reports, the whistleblower comments. I have determined that the 
reports contain all the information required by statute. 
However, the agency's findings are partially unreasonable. As 
the whistleblowers noted, the office of''--the one that you 
oversee--``is tasked with protecting civil rights of all USDA 
employees. As such, this office should set the standard not 
only for processing claims, but also for creating an 
environment free of discrimination rather than leading this 
effort.''
    The report confirms that your office, Mr. Leonard, has had 
an unusual high number of complaints filed against its own 
leadership. In addition, almost half of these complaints were 
not acted on in a timely manner. And even when they were 
addressed within the legally mandated period, they were 
processed in a manner that violated agency regulations. While 
the report did not reveal any intentional wrongdoing, it 
demonstrated that OASCR has been seriously mismanaged, 
therefore compromising the civil rights of the USDA employees.
    Given the seriousness of these concerns, the corrective 
actions appear to only partially resolve the identified wrong 
doing. While they adequately address the management and conduct 
of OASCR going forward, the proposed corrective actions do not 
provide sufficient redress for affected individuals.
    We also have the number of EEO complaints filed against 
USDA senior manager headquarters going from roughly 1 in 2011 
to 24 in 2014, with zero findings of discrimination. In fact, 
over 2011 to 2015, 42 complaints filed, zero findings of 
discrimination.
    Mr. Leonard. Again, senior management officials at USDA.
    Chairman Chaffetz. Yeah. So going back to the special 
counsel's letter, detail for us where they're wrong.
    Mr. Leonard. But firstly, that's just not my office. That's 
all of USDA----
    Chairman Chaffetz. Understood. Understood. In the context 
of it.
    Mr. Leonard. In my office it was 12 for a 5-year period, 
and we have 140 employees.
    Chairman Chaffetz. That's a lot. That's a lot. Ten percent?
    Mr. Leonard. The majority of complaints that are on senior 
leaders in my staff are chain of command complaints.
    Chairman Chaffetz. You don't think that's a lot, sir?
    Mr. Leonard. The majority of the--the majority of the 
complaints are chain of command and complaints. So they're 
coming six down. So if you don't get a QSI, and you want your 
QSI, you'll put it on the person on top of you, the other one. 
I'm five people removed, but I'm still--I'm still in that 
number. So I'm just trying to explain the numbers to you.
    Chairman Chaffetz. We have an independent person, the 
Office of Special Counsel, who sends just a handful of letters 
to the President, and she sends one and comes to the finding. I 
want you to explain to us why you think she's wrong.
    Mr. Leonard. She came with a finding?
    Chairman Chaffetz. Yes. I just read it to you.
    Mr. Leonard. In my world, there's a finding or a 
nonfinding. A finding would have an order of relief attached to 
it. I mean, an order. An order. If there's a finding on the 
Forest Service, I'm ordering them to put civil rights placards 
up. I'm ordering people to go to civil rights training. I'm 
ordering removal. I'm ordering----
    Chairman Chaffetz. I'm asking you--I'm trying to lessen my 
time here. I'm trying to ask you in this multipage letter where 
you think she's wrong. Tell me what you dispute.
    Mr. Leonard. I can--I will tell you this. Our Office of 
Inspector General did the investigation of that, and there are 
going to be few people who will come to you and say: I agree 
100 percent with the Office of Inspector General report.
    Chairman Chaffetz. I'm not talking about----
    Mr. Leonard. I agree with it, but the----
    Chairman Chaffetz. Mr. Leonard. Mr. Leonard, you're not--
Mr. Leonard. Mr. Leonard, stop. Stop. Mr. Leonard, I want you 
to stop. I'm not talking about the inspector general. I'm 
talking about the Office of Special Counsel who sent a letter 
to the President of the United States. That is not a common 
occurrence. It happened more than a year ago. I'm asking you, 
giving you the opportunity for you to tell me where you think 
she's wrong.
    Mr. Leonard. I agree with the inspector general report that 
did the investigation. I have concerns with the interpretation 
of said report.
    Chairman Chaffetz. Okay. We'll revisit this. I've gone way 
past my time.
    I believe it's Mr. Hice of Georgia who I will now recognize 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Ms. Lago, let me get a few of these numbers right in my 
mind again. I know you've stated it, so forgive me for 
repeating this. But how many Forest Service employees have been 
terminated in the past year for sexual harassment?
    Ms. Lago. In the last year, 17.
    Mr. Hice. Seventeen.
    Ms. Lago. For sexual misconduct, to be clear. It isn't 
always sexual harassment. They may not have harassed someone 
else, but they conducted themselves----
    Mr. Hice. How many have been terminated for sexual 
harassment?
    Ms. Lago. I'll have to come back to you with that number.
    Mr. Hice. Okay. And you have mentioned a couple of times 
``as per Federal law'' a person has a choice between being 
removed from office or retiring.
    Ms. Lago. Yes, sir.
    Mr. Hice. Okay. So why would they have a choice when we're 
dealing with sexual harassment? Why would you permit them to 
have a choice for retirement with full benefits as opposed to 
removing them from office? Why did they get the choice?
    Ms. Lago. Well, sir, I'm not sure how to explain it. But 
per Federal law, the procedures for removing a Federal employee 
provide them the opportunity----
    Mr. Hice. Is there any behavior that an individual could 
commit whereby they are not allowed a choice as per Federal 
law? Is there any behavior whereby you would remove them from 
office and they would not even have a choice of retirement?
    Ms. Lago. I'm not totally sure about that. I'd like to get 
back to you.
    Mr. Hice. So you are saying, then, is this your testimony, 
that based on Federal law, that an employee can commit any 
crime or do any kind of behavior they want to and find 
protection under Federal law to keep their job or to keep their 
benefits when they retire?
    Ms. Lago. I'm aware that we have removed people while they 
were incarcerated, awaiting trial, that kind of thing, and I 
don't believe we gave those people the option. But I'm not sure 
the statute or the regulation under which we were able to do 
that.
    Mr. Hice. Don't you think it would be kind of wise for you 
to know the boundaries within which you're able to walk as it 
relates to people who are committing crimes, who are committing 
sexual harassment, and you don't even know the law, you don't 
even know the boundaries whereby you have authorization to 
remove them from office? Don't you think that's kind of 
important for you to know?
    Ms. Lago. Yes, that's important.
    Mr. Hice. Well then why don't you? This is not new. You are 
not just finding out about these cases now. You've known about 
these cases for a long time, by your own testimony. And yet 
here you sit before us today and say that you still don't even 
know the law as to what your rights are to remove people from 
office?
    Ms. Lago. I'm not sure the specific authority by which we 
can remove people without providing them the option to retire--
--
    Mr. Hice. You've stated that. My comeback is that is 
inexcusable for you to be in a position such as you're in and 
not even know the authority. You are allowing people to commit 
crimes and not removing them from office, allowing them to 
retire and get full benefit, and you can't even describe for 
this committee what possible behavior a person would have to 
commit in order for them to be removed from office. I find that 
inexcusable.
    Now, what about the discipline? You've mentioned--how many 
have disciplined?
    Ms. Lago. This year? In total, 600 people in 2016.
    Mr. Hice. What kind of disciplinary action has been taken?
    Ms. Lago. We've removed people. We've suspended people. 
We've demoted people. There have been----
    Mr. Hice. You've removed them. You've just reassigned them. 
Is that what you mean?
    Ms. Lago. We have removed, as in they don't work here 
anymore, 200 people.
    Mr. Hice. I thought you just said you couldn't remove them.
    Ms. Lago. No, I didn't say that.
    Mr. Hice. You did say that.
    All right. Let's go back to disciplinary action. What does 
disciplinary action look like? Are these people getting a slap 
on the wrist?
    Ms. Lago. As I mentioned, 200 were removed. Some number get 
suspensions. Some number get demotions. Some people get letters 
of reprimand and warning. It depends on the offense.
    Mr. Hice. And some people get promotions. We've already 
seen that today too. Is that considered a disciplinary action, 
for people to receive promotions for their criminal behavior?
    Ms. Lago. People don't get promotions for their criminal 
behavior.
    Mr. Hice. Well, it's happened, as has even been described 
here today.
    Mr. Chairman, I find this absolutely offensive, to sit 
through this whole thing and to hear the incompetence that's 
occurring in high-level positions.
    And with that, sir, I yield back. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    We're going to recognize the gentleman from Massachusetts, 
Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I do want to say there's some inconsistency, Ms. Lago, with 
your answers to Mr. Hice's questions. He was asking why people 
were given the option to retire instead of being fired. And you 
said: Well, we don't know how to get rid of them, so we have to 
retire them. Then later on you said: We fired about 200 people.
    So I'm just curious why, if you had the ability to remove 
them, why didn't you remove them? Can you explain that?
    Ms. Lago. I will explain that. If we have the ability to 
remove them and don't have to offer them the opportunity to 
retire or resign, we would do that. Some people don't exercise 
their option to retire or resign, and we remove them.
    Mr. Lynch. But under Title V you can remove people for this 
type of conduct. You know that, right? Have you explored your 
legal rights in terms of terminating their retirement for 
sexual harassment?
    Ms. Lago. I haven't personally, no.
    Mr. Lynch. Well, it would seem that someone in your 
situation, with what's going on in this Department, that you 
should have a long time ago, if you were really interested in 
serious discipline, you would know, you would know to the 
letter what your rights were if you wanted to remove someone. 
So I don't think you've given it serious thought. Nor do I 
believe that you've gone back to your legal counsel and got 
solid foundation in terms of what your options are. And I 
suggest you need to do that.
    Mr. Leonard, I want to go back to the chairman's line of 
questioning. When the Office of Special Counsel wrote its 
warning letter to President Obama, which is a serious and 
unusual occurrence, it said this about your office, the Office 
of the Assistant Secretary of Civil Rights, and I quote here.
    ``A large number of EEO complaints had not been acted on in 
a timely manner. The investigation revealed that from November 
2009 through September 2014, OASCR received 231 complaints 
filed against senior USDA managers, including 13 filed against 
Ms. Scott or other OASCR officials. Overall, 112 of these 
complaints, including at least 5 filed against Ms. Scott or 
another OASCR official, were not investigated and reported on 
within the 180-day time limit established by law.''
    So we have 112 complaints--that's close quote--so 112 
complaints that were not investigated within the 180-day time 
period. Is that right?
    Mr. Leonard. That's correct.
    Mr. Lynch. Okay. How many of those 112 complaints have been 
closed since the time of this letter that went to President 
Obama?
    Mr. Leonard. I believe, since the time of the letter, that 
the actual number grew to 120. I believe there are only 3 open 
at present.
    Mr. Lynch. So they've all been closed except for three.
    Mr. Leonard. Except for three.
    Mr. Lynch. Okay. And what----
    Mr. Leonard. At least two of those----
    Mr. Lynch. And what does ``closed'' mean? Was there a 
decision on the merits in those cases?
    Mr. Leonard. There were 34 of them that were settled. There 
were decisions on the merits on everything else, either EEOC or 
a final agency decision that we did.
    Mr. Lynch. So every single case except for three.
    Mr. Leonard. Except for three. Except for three.
    Mr. Lynch. Okay.
    Mr. Leonard. It's important to realize that in the--I 
removed three managers, GS-15s, from the positions that weren't 
getting the job done. I removed three managers. I removed a 
vendor that we were utilizing because there seemed to be gaps 
in cases. Since 2014, we have been 100 percent accurate. Fiscal 
year '14, fiscal year '15, fiscal year '16, we've been 100 
percent accurate.
    Once we made these changes in personnel and vendors in the 
last 3 years we've been 100 percent accurate, and we're 100 
percent accurate in the beginning of 2017.
    Mr. Lynch. Okay. What steps has the Department made or 
taken to make individuals whole by improper delays in their 
cases lingering for such a long time?
    Mr. Leonard. If it was merited, we settled 34 of those 
cases.
    Mr. Lynch. Okay.
    Mr. Leonard. If many of them didn't have strong merit 
because the alleged discrimination, there wasn't strong merit, 
it went the usual route of either having a finding or going to 
EEOC. But if we had merit, of the 120 cases, 34 of them, we 
took it upon ourselves to encourage the agencies, those 120 
cases, all the 18 departments and 17 staff offices of USDA. So 
we took it upon ourselves that we said that these have merit. 
Your individual agency and/or staff office needs to attempt to 
settle.
    Mr. Lynch. Okay. I'm going over my time. But in closing I 
just want to say that the number of cases, the volume of cases 
here in this one Department, indicates a culture. And I just 
hope you're doing everything possible to eradicate that culture 
so that other employees aren't similarly aggrieved.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll now go to the gentleman from Wisconsin, Mr. Grothman, 
for 5 minutes.
    Mr. Grothman. Ms. Donnelly, you've been testifying before 
this committee for apparently quite a while. And I know you 
were before this committee in 2008 when maybe many of us 
weren't around. Could you let us know whether you feel there's 
been improvement over the last 8 years, you could compare the 
current environment at the Forest Service today compared to 8 
years ago?
    Ms. Donnelly. I wish I could say there was improvement, 
one, one thing, that had improved, and I can't. Things have 
gotten worse in terms of the blatant harassment against women, 
minorities, and people with disabilities. The complete 
disengagement of Secretary Vilsack and Chief Tidwell and Dr. 
Leonard from working with the coalition and other groups to try 
to resolve these issues.
    In the previous administration, we had access to the 
Secretary, meetings, access to the chief. We were invited to 
the White House. And there was more of a collaborative effort. 
And in the last 8 years, there's been virtually no response to 
our requests.
    And our request has been very simple. It's to merely sit 
down and start talking, have a dialogue, to talk about the 
issues and exchange ideas and move towards resolution. And 
Secretary Vilsack and Dr. Leonard and Chief Tidwell have 
absolutely not wanted to do that. And the conditions for 
employees have worsened.
    Mr. Grothman. Wow. So under the current Ag Secretary under 
the Obama administration, as bad as things were in 2008, things 
have gotten even worse, even more callous, even more who cares?
    Ms. Donnelly. That's correct. I've actually seen an 
increase in women reporting rape. Now, the agency won't tell 
you that. But women are afraid to come forward and report it. 
They won't even report it to the police because they don't want 
the agency to know. Because, again, I refer back to Alicia 
Dabney, when she reported these things, the agency trumped her 
up on false charges and terminated her. And they did it 
publicly so other women employees could see the chilling effect 
it would have for a woman to come forward. And people have 
children, they have mortgages. And women will suffer in silence 
rather than lose their job. It's a disgrace.
    Mr. Grothman. I'm going to switch aside just to one other 
question and then I'm going to come back to you. This question 
can be, I guess, for whoever feels qualified to answer it. We 
always get a, you know, a variety of information before these 
hearings.
    I noticed here there was a consent decree under a, like, 
probably a 40-year old case now, Bernardi v. Madigan. Is that 
consent decree still in--if you guys are familiar with it--is 
that still in effect?
    Ms. Lago. No, it isn't.
    Mr. Grothman. Okay. Okay.
    Ms. Donnelly, can you give us some more--I mean, this 
Beckett thing is just almost unbelievable. I mean, just when 
you think the government couldn't get any worse, they get 
worse. But could you give me some other examples of cases that 
you'd like to tell this committee.
    Ms. Donnelly. Yes, I do have many. And one thing I would 
like to make really clear to the committee that hasn't been 
brought out very clearly, when Mr. Beckett was brought back 
this year to be a motivational speaker, it wasn't the first 
time the agency did that after he retired.
    Very shortly after he retired, the agency let him come 
back, be hired on an incident management team that goes out to 
fire assignments across the Nation. And we found that out. It 
was done very sneakily, and we found that out. And Ms. Rice was 
very concerned because she would possibly unknowingly run into 
him on a fire assignment. And it took us a lot of work to get 
the agency to take him off the team.
    Mr. Grothman. So he got back on the payroll again, is what 
you're saying.
    Ms. Donnelly. Yes, yes, absolutely. And the agency 
supported it until we really fought to get him off that team. 
So bringing him back as a motivational speaker was the second 
time.
    Mr. Grothman. Okay. Ms.
    Lago, you made a point of saying that when he came back as 
a motivational speaker he wasn't paid. And even then that was 
not appropriate. Do you agree, though, that he was also brought 
back as a paid employee for a while and could have wound up 
working with Ms. Rice?
    Ms. Lago. Thank you for the opportunity to respond. In 
fact, he was picked up on a California contract crew, and he 
appeared on one of our fires. And Ms. Donnelly helpfully raised 
that to our attention and we immediately intervened to get him, 
his contract crew off our fire, and to put direction out that 
he should never be allowed to be contracted with, appear on our 
fire, et cetera.
    Mr. Grothman. Ms. Rice, it looks like you have something to 
say. Do you?
    Ms. Rice. I disagree. He was picked up on a team with the 
agency.
    Mr. Grothman. Okay.
    Ms. Rice. I disagree. He wasn't on a contract crew. He 
didn't have a contract crew.
    Mr. Grothman. Okay. Well, we're not going to be able to 
settle that today. But obviously we should be able to get to 
the bottom of that.
    Ms. Rice, you're pretty confident that he was working for 
the Forest Service again?
    Ms. Rice. Yes.
    Mr. Grothman. Okay. Why don't we track down the answer to 
that.
    Chairman Chaffetz. And if the gentleman will yield, do you 
have--how long, what was the timespan? So he leaves the one 
position. How long before he's back on a crew?
    Ms. Rice. A month?
    Chairman Chaffetz. About a month later?
    Ms. Rice. Two months?
    Chairman Chaffetz. And then how long did he serve in that 
role? Do you have any idea?
    Ms. Rice. I don't think it was very long. A couple months.
    Chairman Chaffetz. Okay. Thank you.
    The gentleman yields back.
    Let's recognize the gentleman from Missouri, Mr. Clay, for 
5 minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    And let me thank the witnesses for being here today. Ms. 
Donnelly and Ms. Rice, I would like to thank you for your 
courageous testimony today. I know it must be very difficult 
for you to revisit your experiences in such a public setting, 
and we appreciate you coming forward.
    There is a history of discrimination and harassment of 
female firefighters in the Forest Service spanning more than 
four decades.
    Ms. Rice, let me begin by asking you about the events 
leading up to your decision to file an EEO complaint in 2011. 
In as much detail as you feel comfortable providing, can you 
describe what you endured?
    Ms. Rice. It started off with just the, you know, sexual 
innuendos, and it escalated to touching me and cornering me and 
trying to be inappropriate with me. He had me removed from the 
office to this other office where he could come and go as he 
pleased and nobody would see him. I had even quit announcing 
myself on the radio to avoid running into him because he would 
show up at my location.
    Mr. Clay. And what made you finally want to come forward?
    Ms. Rice. This had been going on for a couple of years, and 
it was--I was breaking down. I couldn't take it anymore.
    Mr. Clay. And in your written testimony for today's hearing 
you state, and I quote, ``Women who report sexual harassment 
are retaliated against. It is your word against his. And you 
know the moment you open your mouth to speak up you are 
committing career suicide.''
    Can you elaborate on this statement? What retaliation did 
you experience after reporting?
    Ms. Rice. The way they handled my case. It was--it was--
everything was done wrong. I was the bad guy. They protected 
him. You know, he----
    Mr. Clay. And, Ms. Lago, how do you respond to Ms. Rice's 
deeply troubling statement that reporting harassment is 
tantamount to committing career suicide and to the allegations 
of retaliation she has expressed?
    Ms. Lago. Well, I think what she experienced was 
horrifying. And I think the actions of Mr. Beckett are 
unforgivable. I think anybody that goes through that, it's 
horrifying and unacceptable.
    As far as retaliation, we don't condone, tolerate, accept 
retaliation. We have procedures when people report retaliation. 
But what we struggle with is there's fear of retaliation. 
People fear reprisal. So that fear suppresses people coming 
forward. It makes it difficult for us to take action to 
demonstrate our commitment.
    Mr. Clay. Well, and here, to me it sounds as though if this 
has been going on for four decades in this service, then there 
is a problem with the culture of the Fire Service. So how do we 
attack and change the culture of men feeling they can dominate 
women? What is this all about?
    Ms. Lago. Sure. Thank you. So I think there are two things 
that we have underway that are going to be helpful in this 
culture change. Because, as you mention, it's long term, it's 
longstanding, and it takes time to turn it around.
    So the couple of things that I'm thinking of is we have 
workshops and skill building and team building for women in 
fire programs across the country. So that's one thing.
    And the second thing is our efforts to include more women 
and minorities in our fire jobs. The number one way people come 
into the fire job is through our apprentice academy. And, for 
example, in the most recent advertisement, there wasn't enough 
diversity in the applicant pool. So Regional Forester Randy 
Moore cancelled the advertisement and is rerunning it and he 
asked to get more outreach.
    Mr. Clay. What about more severe action and requiring that 
some of these heads roll, that people be fired, actually, for 
their actions on the job? Any movement towards that?
    Ms. Lago. You know, my boss, the chief, says, you know, if 
you get a chance to ask the committee, ask them to help us make 
it easier to fire people. So we have a code, a penalty guide. 
We use that for our guidance. And, yeah, we would like to fire 
people.
    Mr. Clay. It shouldn't be too difficult with people 
conducting themselves in that manner where they are harassing 
and overtly harming their coworkers. It shouldn't be that hard.
    My time's up.
    Chairman Chaffetz. I thank the gentleman.
    We're very pleased to have Ms. Speier who's joined us. She 
was a full member of the--of the committee, and we wish she 
still was, quite frankly. But we're glad that she's joined us 
today. We ask for unanimous consent that she join the 
committee, which we have already done.
    And so we're pleased that you're here, and I now recognize 
Ms. Speier for 5 minutes.
    Ms. Speier. Mr. Chairman, thank you. And I would love to be 
able to join this committee again. I truly enjoyed the time I 
spent here. And I want to thank you, Mr. Chairman, for having 
this hearing, because this issue is a very, very serious one.
    You know, I'd like to paraphrase Shakespeare and say there 
is something rotten in the U.S. Department of Agriculture and 
the Forest Service. This has been going on for 40 years. And 
lawsuits are filed, they are settled, there are consent decrees 
that go on for a period of years, and then the behavior 
reoccurs again and again and again.
    Now, I sent a letter, with a number of my colleagues, to 
the USDA OIG in 2014 asking the IG to look into the allegations 
of sexual harassment. And the IG from the U.S. Department of 
Agriculture wrote back and said: We're not going to do this 
investigation. They're working hard on it. Things will improve.
    And then more recently, Mr. Chairman, you and many others 
from the Senate and the House, bipartisan, have sent yet 
another letter, and it appears that there may be an 
investigation.
    Ms. Lago, you met with me at one point. And if I remember 
correctly, we had asked that you do a climate survey. And you 
said you were going to do one but you were going to require 
that people identify themselves. And I said that was pretty 
outrageous, that you're not going to get accurate information 
by doing that. And then you chose, rightfully, to make it 
anonymous.
    But in that conversation that we had, you said something to 
the effect that, you know, boys will be boys, that the 
environment is such that you can't trust what goes on in the 
backwoods, and you can't really trust what people say. Do you 
remember that conversation?
    Ms. Lago. I'm certain I never said boys will be boys.
    Ms. Speier. Well, maybe I'm paraphrasing it. But you said, 
you know, when you have an environment like this and they're in 
the back country, these kinds of things happen.
    Ms. Lago. Well, I'm not sure what I said.
    Ms. Speier. Well, let me ask you this. You made reference 
to the fact that you're not sure you can trust everything 
that's said. Do you believe what Ms. Donnelly and Ms. Rice have 
attested to?
    Ms. Lago. I believe what Ms. Rice has attested to. I don't 
believe that all of what Ms. Donnelly has attested to is 
accurate.
    Ms. Speier. Did you all stand and raise your right hands 
and swear under oath when you came in this morning?
    Ms. Lago. We, yes did.
    Ms. Speier. So you believe that she swore under oath and 
she's still not telling the truth.
    Ms. Lago. I said I didn't think it was accurate.
    Ms. Speier. Well, you're mincing words here. Either you 
believe her or you don't.
    Ms. Lago. Well, you can be factually incorrect and think 
you're telling the truth.
    Ms. Speier. So you think she's factually incorrect.
    Ms. Lago. That's right.
    Ms. Speier. All right. Let me ask you about Mr. Beckett. 
Everyone seems just shocked that he was rehired in any 
capacity.
    Ms. Lago. I agree.
    Ms. Speier. What have you done to the person who rehired 
him? Have there been any personnel actions taken against that 
individual? Have you even looked into it?
    Ms. Lago. Yes, that was 2011 or '12. But my understanding 
was he was hired on an interagency crew, not a Forest Service 
crew, as a contractor. We took action to get that contractor 
off our fire.
    Ms. Speier. All right. Do you know what I'd like for you to 
do, and if the committee would so allow, I'd like to have you 
show us documentation of that, because there appears to be some 
dispute as to whether he was a contract employee or not. We 
should see that.
    Ms. Speier. And even if he was hired as a contract employee 
on an interagency, someone had to know that he was being 
brought back. Someone had to make the decision to have him come 
back as a motivational speaker, whether he was being paid or 
not. And, frankly, that has really nothing to do with it, 
because it's sending a huge message to everybody that even 
though this individual has been terminated, even though he has 
been found to have conducted himself inappropriately, we're 
bringing him back as a motivational speaker. So everyone, you 
know, shut up.
    Now, let me move to retaliation. In the ICF report it makes 
it very clear that there were systemic differences in the 
survey responses between female and male perceptions of the 
workplace. Women provided consistently less favorable responses 
than men.
    My time is almost up. What are you doing to address the 
fact that women in the Forest Service feel that they are 
retaliated against and that the environment is hostile?
    Ms. Lago. Yes. Thank you. So since that survey we have 
added a position in the regional office who is sort of an 
ombudsman for work environment who works directly with all of 
the forest. We have done--we have dispatched civil rights teams 
who meet with--or who travel with OGC attorneys, to meet with 
forest, to have groups talking about our antiharassment 
training, appropriate conduct in the workplace. We are hosting 
focus groups around retaliation because, again, it's a fear of 
reprisal, and if people don't come forward and describe their 
experience, we don't have the opportunity to follow up on it. 
So we're piloting those focus groups in several of the forests.
    Ms. Speier. Mr. Chairman, my time has expired, but let me 
just finally say that the way that you make sure that there's 
not reprisals, the way you make sure that people do not feel 
fearful in terms of reporting is to enforce the law and take 
action against the perpetrators.
    I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    Does any other member have any additional questions.
    The gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    I just want to make sure that I understood your answer to 
one of my questions correctly, Ms. Lago. I asked you do you 
recognize the name Alicia Dabney.
    Ms. Lago. My answer was yes.
    Mr. Palmer. Okay. And Alicia Dabney alleged that an 
attempted rape occurred, that she was in put in a chokehold and 
the guy attempted to rape her. Was there a criminal 
investigation into that?
    Ms. Lago. Not that I know of.
    Mr. Palmer. Why not?
    Ms. Lago. Because she did not make that allegation in her 
misconduct investigation inquiry.
    Mr. Palmer. That was also mentioned in Congresswoman 
Speier's letter. Was anyone fired?
    Ms. Lago. In events associated with Ms. Dabney, yes.
    Mr. Palmer. The perpetrator was fired?
    Ms. Lago. Unrelated to the allegation of rape, yes, someone 
was.
    Mr. Palmer. Was the perpetrator, though--the person who did 
this was fired, but it had nothing to do with the alleged 
attack on Ms. Dabney?
    Ms. Lago. That's correct. It was a different event.
    Mr. Palmer. And wasn't Ms. Dabney fired later?
    Ms. Lago. She resigned.
    Mr. Palmer. That's in conflict with one of the documents 
that I have. I'd like for you to look into that and give 
clarification.
    Ms. Lago. Yes, sir.
    Mr. Palmer. Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll recognize Mr. Grothman of Wisconsin.
    Mr. Grothman. Yeah, couple more questions for Ms. Lago.
    That Bernardi v. Madigan consent decree apparently expired 
or was--it was no longer in effect around 2005, 2006, correct? 
Is that what----
    Ms. Lago. I think it was sooner than that.
    Mr. Grothman. Sooner than that.
    Ms. Lago. I think it was in the '90s.
    Mr. Grothman. In the '90s, okay. I think at the time, what, 
your goal was to get 43 percent women in every position?
    Ms. Lago. In California.
    Mr. Grothman. Yeah. And after it expired, do you still have 
similar goals or could you comment on----
    Ms. Lago. Sure. So currently in the Forest Service about 35 
percent of the workforce are female. That's been consistent 
over the last several years. In California it's slightly less. 
I think it's 32 percent. So we're not at 43 percent.
    And the reasons for that are complicated, or complex, I 
guess I should say. So what has changed since the '90s is the 
workforce in California is a much higher percentage of 
firefighter than it used to be. We have probably doubled the 
number of firefighters in California while the total workforce 
has stayed the same or declined. So there's a greater 
percentage.
    When you look at the civilian labor force and look at the 
firefighter occupation, between 4 and 5 percent of firefighters 
are women, compared to about 12 percent are women firefighters 
in the Forest Service. It's hard to reach that 43 percent 
parity with the civilian labor force with the proportion of 
firefighters that we have. But we are implementing strategies 
to increase our outreach in hiring for women.
    Mr. Grothman. You are doing what you can to promote women 
and that sort of thing?
    Ms. Lago. Yes, sir.
    Mr. Grothman. Okay. And--okay. I'll leave it at that.
    Chairman Chaffetz. Thank you.
    We'll recognize Mr. Cummings.
    Mr. Cummings. Just very quickly.
    Dr. Leonard, OSC wrote its letter to the President in 2015. 
And when did you first become aware that a majority of the 
complaints filed against the senior managers were not being 
acted on in a timely manner?
    Mr. Leonard. Probably----
    Mr. Cummings. I can't hear you.
    Mr. Leonard. Probably 2014. Twenty fourteen is when we 
began to make personnel changes in that office, 2014 or 2013. 
Because when the report came out, we had been timely for--100 
percent timely a year. So we had been working towards that aim 
prior to the report coming out and even prior to the 
investigation of the office.
    Mr. Cummings. So how could it get so bad that 81 percent of 
the complaints were not acted on in a timely manner? How did 
that happen?
    Mr. Leonard. Congressman, it's important to realize this is 
1 division within 13 divisions that we have at USDA. It's 1 
division. We have 13 different divisions that have around 140 
employees. This division was lacking. Once we realized it was 
lacking we began to make every adjustment that we could. And as 
I've said before, moving persons around, getting new personnel 
in, getting new leadership in, and really reconstituting the 
office, in addition to a new vendor that we had to procure out 
and remove the other one that was not doing the job properly.
    Mr. Cummings. Let me say this. I just think we can--we 
can--we got to--Ms. Lago and Mr. Leonard, we got to do better.
    You all are Presidential appointments.
    Mr. Leonard. I am.
    Mr. Cummings. And you, Ms. Lago?
    Ms. Lago. No.
    Mr. Cummings. All right. So you'll still be there, Ms. 
Lago. And when I hear what Ms. Donnelly said as compared to 
what you said, I'm sorry, we've got a long way to go. And I 
know you're sensitive to these issues. I understand what you've 
said about your background. But I think we got a lot more to 
do.
    And, you know, I've tried a lot of cases in my life. But I 
got to tell you, as I sit here and I watch Ms. Rice, it's very 
painful. I mean, you can--I can feel her pain.
    And she said something that I want, you know, I want you to 
think about. And Mr. Gowdy alluded to this, and I think the 
chairman did too. We're men. So we may not be able to feel 
everything that you feel. But you talked about your husband. 
That we can relate to, you know, and how he felt as a man that 
he could not protect you. And then to see you--the idea of 
seeing you pack up your lunch, get dressed, and march out every 
day to a place where you are in fear. That's not right.
    So we've got to deal with this. And the idea that we have a 
40-year history?
    And so, Ms. Rice, I hope that you--and I know that the 
chairman agrees with me on this--if you feel that you're being 
retaliated against, you know how to get ahold of our offices. I 
beg you, I'm not asking you, I beg you, and I mean that, to do 
that.
    Ms. Rice. Thank you.
    Mr. Cummings. Because we want to do everything in our power 
to surround you with some protection. And it pains me to even 
say that, that we have to be about the business of protecting a 
Federal employee who simply wants to do her job.
    And so I want to thank you, Mr. Chairman, again for calling 
this hearing.
    Chairman Chaffetz. Thank you. Very well said. I appreciate 
that.
    I now recognize Ms. Kelly for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Ms. Lago, I want to discuss some of the discrimination and 
harassment suits that have been brought against the Forest 
Service over the years. One of the requirements of the consent 
decree was to bring the California staff in line with the 
percentage of women in the civilian workforce. Is that correct?
    Ms. Lago. That is correct.
    Ms. Kelly. Was this achieved?
    Ms. Lago. I don't know if it was achieved during the period 
that it was in effect.
    Ms. Kelly. You don't know if it was achieved?
    Ms. Lago. No, I don't.
    Ms. Kelly. After that consent decree expired, there were 
more allegations of discrimination, and there was another class 
action suit in 1995.
    Ms. Donnelly, you were the lead plaintiff in that class 
action. Is that correct?
    Ms. Donnelly. Yes, that is correct.
    Ms. Kelly. And that class action resulted in another 
consent decree. Is that correct? Right?
    Ms. Donnelly. Yes.
    Ms. Kelly. All right. What changes to the Forest Service 
policies are required by that consent decree?
    Ms. Donnelly. There was mostly administrative injunctive 
relief. We had a group of people that we put together to work 
on some issues. We looked at the performance evaluations and 
made changes to the evaluations so that there would be more 
accountability. That's no longer there. After the consent 
decree ended, they took it out again. There was a mentoring 
program. There was an investigation process for reprisal. There 
was a scholarship program, and a women's conference every year.
    There was a women's special emphasis program manager put in 
place in the region, and things that would--we were trying to 
change the culture so that women could feel comfortable using 
these processes and kind of make up for past problems that were 
caused so that they could move past some of the things that had 
happened to them.
    Ms. Kelly. Except for the one thing you mentioned, is 
everything else still in place?
    Ms. Donnelly. No. They dropped just about everything. It 
was incredible. The consent decree ended in 2006, and within a 
couple days I got a call from one of the women that was in a 
meeting. They announced that it was over, and one of the men 
stood up and they clapped and they said, we're back. And 
shortly after that, the agency dropped almost everything that 
was in that consent decree. And I believe that's one of the 
reasons that they started backsliding. And in 2008, I started 
contacting the Secretary and the chief again, saying, we're 
going back to the way it was.
    Ms. Kelly. Just the idea that someone would stand up and 
say, we're back, is utterly ridiculous.
    Ms. Donnelly. Yes.
    Ms. Kelly. And so even though you did all of those things, 
that couldn't have done much for changing the culture of the 
environment.
    Ms. Donnelly. It didn't change the culture at all. And one 
of the reasons it didn't is because Region 5, the Forest 
Service, looked at the items they had to implement as something 
they were just ordered to do. It was not something they felt 
they wanted to do or they wanted to incorporate and make 
changes. They did it because they had to do it, and they were 
waiting for it to get over to not have to do it.
    Ms. Kelly. So they didn't see the need for it?
    Ms. Donnelly. No. And they still don't.
    Ms. Kelly. Ms. Rice, it is my understanding that there's 
another complaint making its way through the EEO process even 
now. Have you attempted to mediate this complaint? If so, what 
happened during that attempt? Ms. Rice.
    Ms. Rice. She's my representative. I have to let her tell 
me.
    Ms. Kelly. Whoever is comfortable in answering is fine.
    Ms. Rice. The class action? Could you repeat the question? 
I'm sorry.
    Ms. Kelly. I'm just asking about the--there's another 
complaint making its way through the EEO process.
    Ms. Rice. Correct. Correct. We have a class action lawsuit.
    Ms. Kelly. And what are next steps that you guys are 
thinking about? Whoever wants to answer.
    Ms. Donnelly. I can answer that. There was an opportunity 
to mediate in January 2015, and six of the class agents and 
myself, we went back--at the cost of the taxpayer, they brought 
all the women in and said they wanted to mediate.
    So we went to San Francisco. We were pretty excited about 
it. We thought, we're finally getting some dialogue from the 
agency. The women put a lot of effort into it. They had notes 
and they had flip charts and ideas. And it was a pretty vibrant 
process for them and so there was a lot of hope.
    So we came into the room and there were attorneys, agency 
attorneys, from Washington and region, and there was a mediator 
judge. We brought in our flip charts. We brought two of our own 
facilitators. And, unfortunately, all the agency would do--we 
had about an hour of general discussion, introductions and 
discussion, and then the agency--the judge wanted to talk to us 
separate. And we started going through our flip charts, and the 
judge got excited about it, because she could see we had put a 
lot of effort into working some resolutions out.
    She went to talk to the agency, came back, and she seemed--
she was kind of excited and she came back and she seemed kind 
of upset. And she brought the agency in, and they just said, we 
don't want to talk, and they just walked away from the table. 
And since that time, nothing has happened, nothing. We're still 
waiting for a judge to be assigned.
    Ms. Kelly. I know my time is up, but I just wanted to say I 
watched Good Morning America this morning and this was the very 
topic. And it's just unbelievable how widespread this issue is 
with many different entities. Thank you.
    Chairman Chaffetz. Thank you. I now recognize the 
gentlewoman from Michigan, Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair.
    As many of you know, I stated on the record that I was an 
EEO investigator prior to coming to Congress. It's totally 
unacceptable for any woman or man to be in a work environment 
where they are subjected to sexual harassment.
    I have a question for Ms. Lago, because I know for a fact 
that the tone is set from the management of any work 
environment what is acceptable in that workforce. When there is 
a complaint of discrimination, it is directed to the 
individuals who have the responsibility of that workforce.
    So I'm going to ask you a question, Ms. Lago. Lago, I'm 
sorry. In the assessment for 2013, the Forest Department 
selected ``no'' in response to the question, and I quote: ``Do 
senior managers meet with and assist the EEO director and other 
EEO program officials in identification of barriers that may be 
impeding the realization of an equal employment opportunity?'' 
In fact, the Forest Service wrote in response to that question, 
and I quote: ``Leadership is not fully engaged.'' That was 
2013.
    Can you explain why that situation existed?
    Ms. Lago. I can't fully explain why that existed in 2013, 
but I can tell you that the opposite is true in 2016, and we 
have our top leadership engaged in meeting with our civil 
rights leadership throughout the country. Since 2013, our civil 
rights organization has been redesigned. The organization 
reports directly to the chief. The civil rights director has 
direct meetings with the chief.
    Mrs. Lawrence. When you say chief, which chief?
    Ms. Lago. The chief of the Forest Service.
    Mrs. Lawrence. Okay. You told our staff that the head of 
the EEO function began reporting to the head of the Forest 
department earlier this year. However, in the Forest Service 
assessment, the agency marked yes to the question: ``Is the EEO 
director under the direct supervision of the agency head?'' Did 
the EEO director report to the agency head back in fiscal year 
2013, or was this a wrong report?
    Ms. Lago. In 2013--well, for as long as I've been in my 
job----
    Mrs. Lawrence. And that's been how long?
    Ms. Lago. Since 2011.
    Mrs. Lawrence. Okay.
    Ms. Lago. The civil rights director, the head of EEO, 
reports to the chief. Prior to 2014, it reported through my 
office. After 2014, that position reports directly to the 
chief.
    Mrs. Lawrence. So if there is a complaint of a department--
and that's very unusual. If there's a complaint of a 
department, that complaint is managed by the director of the 
department where the complaint is happening? To give you an 
example, if the Forest department, there's someone in the 
Forest department, files an EEO complaint to the EEO director, 
then the EEO director is subjected to supervision by the 
director. Is that correct? The chief?
    Ms. Lago. The chief, that is correct.
    Mrs. Lawrence. Is that normal for all Federal agencies?
    Mr. Leonard. Can you repeat the question one more time, 
please?
    Mrs. Lawrence. So you're telling me that the EEO director--
so anyone that files an EEO complaint in the Forest department 
to the EEO director, that EEO director is now subjected to 
supervision by the chief of that department?
    Mr. Leonard. I think the 18 agencies, Forest Service being 
one of them.
    Mrs. Lawrence. Yes.
    Mr. Leonard. On the informal side, they are--they control 
that informal process. But the minute that you file formal, you 
come to our office.
    Mrs. Lawrence. Right, and I understand that.
    Mr. Leonard. As an EEO investigator, I know that you do. So 
the minute we intake the case, we do the investigation of the 
case. So no, the Forest Service----
    Mrs. Lawrence. And who do you report to?
    Mr. Leonard. Secretary Vilsack.
    Mrs. Lawrence. What department?
    Mr. Leonard. Office of the Assistant Secretary for Civil 
Rights.
    Mrs. Lawrence. Okay.
    Mr. Leonard. So we take it out of the department's hands 
and we process the case so they won't do their own 
investigation. That actually changed----
    Mrs. Lawrence. What is the percentage of these cases that 
were filed informally that went formal in the Forestry 
department?
    Ms. Lago. About 50 percent. About 50 percent.
    Mrs. Lawrence. About 50 percent. So about 50 percent of 
them are managed through the actual head of the department, the 
chief?
    Ms. Lago. No. No. They're resolved----
    Mrs. Lawrence. They're resolved, right.
    Ms. Lago. --at the informal stage.
    Mrs. Lawrence. I have another question. Ms. Lago, you 
stated that it's better now, in your opinion. Am I interpreting 
that right? That now the allegations and the concerns in 2013 
no longer exist and that it's better.
    Are you stating on the record that the serious issues with 
discrimination are in the past and that currently your 
department, the Forest department is now not in the same place?
    Ms. Lago. What I am saying is we've improved over the last 
5 years. We've improved both from the standpoint of holding 
people accountable for misconduct as well as reducing 
incidences of workplace discrimination. And that's borne out, 
in my opinion, by the declines in complaints based on gender, 
the declines in complaints based on sexual harassment, and the 
declines in actual findings of discrimination.
    Mrs. Lawrence. Mr. Chair, I know that my time has expired. 
I just want to close with this: It's unfortunate that we have 
to have hearings on this in 2016.
    I'm a fierce fighter when it comes to having a work 
environment that does not discriminate, does not sexually 
harass. And as a Federal agency, sitting on this oversight 
committee, I will be continuously and I will start monitoring 
the number of cases that are being filed. And I'm going to hold 
you at your word that it is improving. We would like zero 
tolerance; that's the objective. But it must continue. Thank 
you so much.
    Ms. Lago. Thank you.
    Chairman Chaffetz. I thank the gentlewoman.
    We'll now recognize the gentleman from California, Mr. 
Lieu.
    Mr. Lieu. Thank you. And thank you, Mr. Chair and Ranking 
Member Cummings for calling this important hearing. And thank 
you, Ms. Donnelly and Ms. Rice, for your courage in testifying.
    I'd like to drill down a little bit deeper on the workplace 
environment assessment. About a year ago--and this is directed 
at Ms. Lago--as you know, a consulting firm produced a 
workplace environment assessment report for the Forest 
Service's Pacific Southwest Region. Just over a thousand 
employees responded to their survey. And while the survey found 
that the majority of participants surveyed were relatively 
satisfied with their workplace environment, the survey also 
found, and I quote, ``women were consistently less favorable 
than men on all aspects of workplace environment.''
    Based on this report, have you assessed why woman are less 
satisfied with their work environment in the Pacific Southwest 
Region?
    Ms. Lago. Well, we've taken several followup actions as a 
result of that survey and that report. First of all, we 
disseminated the report to all the employees and held 
discussion groups about the findings. We have created a 
position in the regional office that is an ombudsman for the 
work environment who is a person people in the field can go to 
directly to elevate issues. We've created civil rights and OGC 
partnership teams that go out to forests and do trainings, 
listening sessions on civil rights, and in particular, to help 
people understand retaliation, what their rights are with 
regard to retaliation, et cetera.
    Mr. Lieu. Okay. And I apologize if this was already asked 
before, but I'm just going to ask it again. The survey also 
found that fear of retaliation is a concern for a substantial 
percentage of your employees in the region, and if you could 
elaborate on whether the steps you have taken you believe have 
mitigated that?
    Ms. Lago. Right. I did, but I'd be happy to repeat.
    So, in our experience, fear of retaliation is a problem. 
And the problem is that, because it's a perception, it's hard 
to validate. It suppresses people, and so people don't take 
action. And so what we've been developing are courses, and 
trainings and--the last part of my last answer--discussion 
groups around perceptions of retaliation, how to give people 
more comfort and confidence to bring up issues when they fear 
retaliation.
    Mr. Lieu. Has this survey been administered in other 
regions?
    Ms. Lago. Not specifically. There was a similar survey--not 
by this organization--for our law enforcement branch, and there 
is a climate assessment underway in our Washington office 
research branch.
    Mr. Lieu. Do you believe other regions should also be given 
this survey?
    Ms. Lago. Well, I think it's a great idea for any region. 
Yes, I do.
    Mr. Lieu. And is there a way you can help make that happen 
so that other regions are also given the survey?
    Ms. Lago. Yes, I can do that.
    Mr. Lieu. Great. Thank you. With that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'd like to ask unanimous consent to enter the following 
documents into the record: A statement by Dr. Leda Kobziar, 
president of the Association for Fire Ecology; a statement of 
Melissa Moore of the United States Forest Service; and a May 
18, 2015 letter from the Office of Special Counsel to the USDA. 
Without objection, so ordered.
    Chairman Chaffetz. We're trying to get a video. I think 
that we may have it.
    So let's now recognize the gentleman from Maryland, Mr. 
Cummings.
    Mr. Cummings. Ms. Lago, there has been a lot of back-and 
forth about your knowledge of Ms. Rice's case. I want to be 
fair to you today, and so I'm going to play the clips of your 
testimony from today's hearing. I want you to take a look at 
this.
    [video shown.]
    Mr. Cummings. Now, that clip, we heard you say that you did 
know that her investigation had been shared with district 
rangers. You said you did not. Is that right?
    Ms. Lago. That is correct.
    Mr. Cummings. I can't hear you.
    Ms. Lago. That is correct.
    Mr. Cummings. Well, this is why I'm confused. You said you 
read the article that we referred to in Huffington Post?
    Ms. Lago. I read it when it came out, yes.
    Mr. Cummings. And that was in March of 2016, right?
    Ms. Lago. Correct.
    Mr. Cummings. Well, the Huffington Post article, and this 
is a quote from that article. It says, In--and I quote, in 
2012, at the district ranger's request, Rice's supervisor 
called an all-hands meeting, called an all-hands meeting. Rice 
was certain that Beckett would be on the agenda. She begged not 
to have to attend, but said she was required to show up. Rice's 
former supervisor couldn't verify this, but said that the 
meeting was handled insensitively: ``Nobody took into 
consideration that maybe she was still feeling like the target 
in the case.''
    Now, this is the onethat got me. This is continuing the 
quote. ``The situation with Beckett was discussed in front of 
at least 50 colleagues; Rice walked out in tears. 'I think that 
was the worst thing that ever happened to me,' she said.'' 
That's the end of quote.
    So did you or didn't you know about the rangers, because 
I'm confused?
    Ms. Lago. So what I'm attempting to say is I heard Ms. Rice 
say her investigative report was shared with rangers. What I 
imagine that means is the transcript was passed out to district 
rangers. Maybe I misinterpreted. I am sorry, I apologize, but 
that's what was a surprise to me.
    Mr. Cummings. So you did know that her testimony, that the 
district rangers knew about it? I mean they knew about her case 
and the facts of it. That's what I meant to say.
    Ms. Lago. Yes, I do.
    Mr. Cummings. All right. That's all. Thank you.
    Chairman Chaffetz. I will now recognize myself.
    I'm glad we're having this hearing and I think you're 
seeing and feeling the bipartisan frustration. And we're not 
going to let go of this. You haven't dealt with it 
appropriately. You've had years to deal with it.
    Here's the vicious cycle, and I see this above and beyond 
just the Forest Service, quite frankly, but here's the vicious 
cycle. In most cases women, but it happens to men as well, 
there is some sort of inappropriate behavior to outright rape. 
It is so difficult, I can't even imagine. I mean, Mr. Cummings 
talked about this. I can't even imagine having to go through 
this, let alone trying to recount it, let alone trying to 
document it, and how brave and how courageous people have to be 
like Ms. Rice to come forward and do that. I can't even 
imagine.
    But when that does happen, here's where I see the--and we 
see this repetitive behavior, and it's a total failing of the 
system. That should be reported to law enforcement and 
oftentimes it is, because it's a crime. And law enforcement 
will look at it and say, well, you know what, the government 
can take care of this itself. And so rather than treating it 
and prosecuting it as a crime, it's given back to the 
departments and agencies.
    Then the department and agency will go and sit, as in this 
case, and have coffee with this person and say, you know, the 
case against you is getting a little tougher, why don't you go 
and take all of your benefits, all of your retirement, and why 
don't you just retire, wink-wink. And they're allowed to just 
walk out the door unscathed.
    Now, part of this is on Congress. We're going to have to 
have some civil service reform. Let's be honest with what Ms. 
Lago is saying, because this isn't the first time we've heard 
this. We've heard this at the EPA from the administrator 
herself. We've heard this from other departments and agencies. 
There comes a time where they have to be able to fire somebody 
and they can't just let them off the hook and simply retire. I 
mean, we heard these ridiculous cases over the last several 
years where they shouldn't get the full benefit if they are 
proven, if they go through the adjudication process and they 
can just simply walk away.
    That's where I hope we do come together in a bipartisan way 
and break this vicious cycle where these predators can just 
prey predominantly on women and have no repercussions. We heard 
the one testimony where we have----
    Mr. Lynch. Mr. Chairman.
    Chairman Chaffetz. Yes, Mr. Lynch.
    Mr. Lynch. Just on that point, I think the evidence in this 
case, and the testimony in this case, has shown that management 
didn't even explore Title V and the recourse available to them 
to remove these people who should have been removed. So the law 
is there. It shouldn't be easy to just fire people for any 
reason, but for good cause, you can use the law. And, you know, 
I'm a former labor attorney.
    You have the ability to fire these people; you just chose 
not to do it. It was either by malfeasance or nonfeasance. 
Choose whatever course you want. But you had the right to fire 
these people; you just did not. It may have been because you 
weren't paying attention, you didn't believe the allegations; 
but you had the right to fire these people and you should have, 
but you didn't.
    But I agree that there--you know, we've got to make sure 
that legal counsel in these departments understand that we will 
not put up with this crap, really. This is unconscionable.
    We all have daughters go to work every single day. Do you 
think we want to see this go on at a workplace like this where 
we have, you know, hundreds of complaints about sexual 
harassment. Fire these people, or if you refuse to then you 
need to be removed. That's the bottom line.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    So the other thing--and we addressed some legislation to 
this effect, but we can't have these predators simply bounce 
from one job to the next.
    Now, it seems to me that in this particular case, Mr. 
Beckett, right, is his name, it's a small community, they knew 
what was going on here. To go back and hire him and then 
subsequently bring him in as a motivational speaker, I can't 
think of anything more offensive.
    And you have to take a good hard deep look in the mirror 
and figure out what in the world the Department of Agriculture 
is going to do to make sure that never ever ever happens again. 
You could go down to Office Max or Best Buy and get a piece of 
software off the shelf and create a little database and say, 
this is the do not hire/do not interact list. You can do that 
for about 50 bucks, okay?
    I don't want to hear about any more excuses. And I don't 
want the Department of Agriculture--why don't they blaze the 
trail? Why don't they, you know--let's actually have them lead 
in this area rather than deal with this for 40 years. I don't 
ever want to have to call you up here again, but I do want to 
know that you're leading the way. But you're not going to prove 
that until you actually do it.
    You know, it's--we hear too many people say, oh, my stats 
are good and I did 100 percent within the timeframe and 
everything that, but the evidence shows to the contrary. So 
that's what I hope we do accomplish.
    Lastly, as we gavel down here, particularly to Ms. Rice, 
thank you for the bravery that you've shown to be here and do 
this. This is not a dream come true testifying before Congress. 
But I hope you do know how inspirational you are to a lot of 
women and you represent a lot of voices that are quiet and 
silent, and they're watching on their computer, TV. And I hope 
when you go back and, you know, visit with your husband that 
there's satisfaction in that. It's helpful to us, and we want 
to be part of that solution and I know you do too.
    And, Ms. Donnelly, thank you for well for your leadership 
on this.
    Mr. Cummings. Mr. Chairman, would you just reiterate what I 
said about making sure they are protected, because I want to 
make it clear that we're on the same page.
    Chairman Chaffetz. There is no daylight between what Mr. 
Cummings is saying and what I'm saying, as the chairman of this 
committee too. On behalf of all of the members, we will go to 
the end of the earth to protect you and the other women that 
have gone through this, but don't be bashful in picking up that 
phone and letting us know. It will be answered and we will 
respond.
    And to those in management and in other positions, I'm 
telling you what, we will use every power we possibly can from 
this pulpit to make sure that they are treated with dignity and 
never have to go through that again in any way, shape or form. 
You will see more subpoenas and more hearings than you can 
possibly imagine if we hear one thing about any sort of 
reprisal in any way, shape or form. I can't say that strongly 
enough.
    It's been a good hearing. I appreciate the four of you 
taking time and testifying today.
    The last thing, Mr. Leonard, within 2 weeks--2 weeks--I 
expect that Mr. Cummings' letter, the letter that we jointly 
did gets responded in its totality. Two weeks.
    The committee stands adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
